<html>
<title> - COORDINATING HUMAN SERVICES TRANSPORTATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
               COORDINATING HUMAN SERVICES TRANSPORTATION
=======================================================================

                             JOINT HEARING

                               before the

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                                and the

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2003

                               __________

                      Committee on Transportation
                           Serial No. 108-22

                Committee on Education and the Workforce
                           Serial No. 108-13

                               __________

 Printed for the use of the Committees on Transportation and Education 
                           and the Workforce





                    U.S. GOVERNMENT PRINTING OFFICE
87-469 PS                  WASHINGTON : 2003
------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       WILLIAM O. LIPINSKI, Illinois
HOWARD COBLE, North Carolina         PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee       JERRY F. COSTELLO, Illinois
WAYNE T. GILCHREST, Maryland         ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                Columbia
PETER HOEKSTRA, Michigan             JERROLD NADLER, New York
JACK QUINN, New York                 ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
JIM DeMINT, South Carolina           BILL PASCRELL, Jr., New Jersey
DOUG BEREUTER, Nebraska              LEONARD L. BOSWELL, Iowa
JOHNNY ISAKSON, Georgia              TIM HOLDEN, Pennsylvania
ROBIN HAYES, North Carolina          NICK LAMPSON, Texas
ROB SIMMONS, Connecticut             BRIAN BAIRD, Washington
SHELLEY MOORE CAPITO, West Virginia  SHELLEY BERKLEY, Nevada
HENRY E. BROWN, Jr., South Carolina  BRAD CARSON, Oklahoma
TIMOTHY V. JOHNSON, Illinois         JIM MATHESON, Utah
DENNIS R. REHBERG, Montana           MICHAEL M. HONDA, California
TODD RUSSELL PLATTS, Pennsylvania    RICK LARSEN, Washington
SAM GRAVES, Missouri                 MICHAEL E. CAPUANO, Massachusetts
MARK R. KENNEDY, Minnesota           ANTHONY D. WEINER, New York
BILL SHUSTER, Pennsylvania           JULIA CARSON, Indiana
JOHN BOOZMAN, Arkansas               JOSEPH M. HOEFFEL, Pennsylvania
JOHN SULLIVAN, Oklahoma              MIKE THOMPSON, California
CHRIS CHOCOLA, Indiana               TIMOTHY H. BISHOP, New York
BOB BEAUPREZ, Colorado               MICHAEL H. MICHAUD, Maine
MICHAEL C. BURGESS, Texas            LINCOLN DAVIS, Tennessee
MAX BURNS, Georgia
STEVAN PEARCE, New Mexico
JIM GERLACH, Pennsylvania
MARIO DIAZ-BALART, Florida
JON C. PORTER, Nevada

                                  (ii)




                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    GEORGE MILLER, California
Chair                                DALE E. KILDEE, Michigan
CASS BALLENGER, North Carolina       MAJOR R. OWENS, New York
PETER HOEKSTRA, Michigan             DONALD M. PAYNE, New Jersey
HOWARD P. "BUCK" McKEON, California  ROBERT E. ANDREWS, New Jersey
MICHAEL N. CASTLE, Deleware          LYNN C. WOOLSEY, California
SAM JOHNSON, Texas                   RUBEN HINOJOSA, Texas
JAMES C. GREENWOOD, Pennsylvania     CAROLYN McCARTHY, New York
CHARLIE NORWOOD, Georgia             JOHN F. TIERNEY, Massachusetts
FRED UPTON, Michigan                 RON KIND, Wisconsin
VERNON J. EHLERS, Michigan           DENNIS J. KUCINICH, Ohio
JIM DeMINT, South Carolina           DAVID WU, Oregon
JOHNNY ISAKSON, Georgia              RUSH D. HOLT, New Jersey
JUDY BIGGERT, Illinois               SUSAN A. DAVIS, California
TODD RUSSELL PLATTS, Pennsylvania    BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio              DANNY K. DAVIS, Illinois
RIC KELLER, Florida                  ED CASE, Hawaii
TOM OSBORNE, Nebraska                RAUL M. GRIJALVA, Arizona
JOE WILSON, South Carolina           DENISE L. MAJETTE, Georgia
TOM COLE, Oklahoma                   CHRIS VAN HOLLEN, Maryland
JON C. PORTER, Nevada                TIMOTHY J. RYAN, Ohio
JOHN KLINE, Minnesota                TIMOTHY H. BISHOP, New York
JOHN R. CARTER, Texas
MARILYN N. MUSGRAVE, Colorado
MARSHA BLACKBURN, Tennessee
PHIL GINGREY, Georgia
MAX BURNS, Georgia


                    Paula Nowakowski, Chief of Staff

                 John Lawrence, Minority Staff Director

                                 (iii)
                                CONTENTS

                               TESTIMONY

                                                                   Page
 Burkhardt, Jon E., Senior Study Director, WESTAT................    26
 Chittum, Hon. Loretta Petty, Deputy Assistant Secretary, Office 
  of Special Education and Rehabilitation Services, U.S. 
  Department of Education........................................     4
 Dorn, Hon. Jennifer L., Administrator, Federal Transit 
  Administration, U.S. Department of Transportation..............     4
 Dye, Hon. David, Deputy Assistant Secretary of Labor, Employment 
  and Training, U.S. Department of Labor.........................     4
 Hutchinson, Jo Ann, Executive Director, Florida Commission for 
  the Transportation Disadvantaged, Florida Department of 
  Transportation.................................................    26
 Raub, Hon. William F., Acting Assistant Secretary, Planning and 
  Evaluation, U.S. Department of Health and Human Services.......     4
 Reinhart, Patrick, Executive Director, Alaska State Independent 
  Living Council.................................................    26
Siggerud, Katherine, Acting Director, Physical Infrastructure 
  Issues, U.S. General Accounting Office.........................    20
 Wenzel, David, Council Member, National Council on Disability...    26

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Berkley, Hon. Shelley, of Nevada.................................    37
Cummings, Hon. Elijah, of Maryland...............................    61
Johnson, Hon. Eddie Bernice, of Texas............................    92
Lipinski, Hon. William O., of Illinois...........................    94
Michaud, Hon. Michael H., of Maine...............................    98
Tauscher, Hon. Ellen O., of California...........................   160

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Burkhardt, Jon E................................................    39
 Chittum, Hon. Loretta Petty.....................................    52
 Dorn, Hon. Jennifer L...........................................    64
 Dye, Hon. David.................................................    72
 Hutchinson, Jo Ann..............................................    80
 Raub, Hon. William F............................................    99
 Reinhart, Patrick...............................................   108
Siggerud, Katherine..............................................   121
 Wenzel, David...................................................   163

                       SUBMISSIONS FOR THE RECORD

 Chittum, Hon. Loretta Petty, Deputy Assistant Secretary, Office 
  of Special Education and Rehabilitation Services, U.S. 
  Department of Education, responses to questions................    58
 Raub, Hon. William F., Acting Assistant Secretary, Planning and 
  Evaluation, U.S. Department of Health and Human Services, 
  responses to questions.........................................   105
 Reinhart, Patrick, Executive Director, Alaska State Independent 
  Living Council:

  Rural Transportation for People with Disabilites, statement....   111
  Alaska Mobility Coalition, white paper.........................   115
  National Council on Independent Living, executive summary......   117
  Flexibility Ideas for Rep. Don Young...........................   120
Siggerud, Katherine, Acting Director, Physical Infrastructure 
  Issues, U.S. General Accounting Office, responses to questions.   155

                        ADDITIONS TO THE RECORD

American Public Transportation Association, statement............   169
Case, Hon. Ed, a Representative in Congress from Hawaii, letter 
  from George Yokoyama, April 30, 2003...........................   176
National School Transportation Association, statement............   174
Taxicab, Limousine, and Paratransit Association, Gene Hauck, 
  President, statement...........................................   178


               COORDINATING HUMAN SERVICES TRANSPORTATION

                              ----------                              


                         Thursday, May 1, 2003

        House of Representatives, Committees on 
            Transportation and Infrastructure, and 
            Education and the Workforce, Washington, D.C.
    The committees met, pursuant to notice, at 10:00 a.m., in 
room 2167, Rayburn House Office Building, Hon. Thomas Petri 
[acting Chairman of the Committee on Transportation and 
Infrastructure] presiding.
    Mr. Petri. According to the prepared statement, a quorum is 
present. The joint hearing of the Committee on Transportation 
and Infrastructure and the Committee on Education and the 
Workforce will come to order.
    I would like to thank my colleague from Ohio, Chairman of 
the Committee on Education and the Workforce, Mr. Boehner, for 
agreeing to hold this joint hearing on ``Coordinating Human 
Services Transportation.''
    So that we get to our witnesses, we have agreed to limit 
the opening statements to the Chairmen and the Ranking Minority 
Members of each committee. With that, I would ask unanimous 
consent that the record remain open 14 days to allow members to 
insert exchange material into the official hearing record. 
Without objection, so ordered.
    The subject of today's hearing of the Committee on 
Transportation and Infrastructure and the Committee on 
Education and the Workforce is coordinating human services 
transportation. I would like to extend my sincere gratitude to 
the governmental witnesses from the Departments of Labor, 
Education, Health and Human Services and Transportation who 
have made time in their busy schedules to appear before the 
committees this morning. Also, I am very grateful to our 
witnesses who have traveled from Florida, Pennsylvania and 
Alaska to participate in today's hearing.
    The General Accounting Office has identified 62 different 
Federal programs that provide funds for specialized 
transportation services for special needs populations. In most 
cases, transportation services are not an end in itself but 
provide access to other services, health and medical services, 
education, job training, elderly nutrition and employment 
opportunities.
    These multiple Federal programs each have unique 
requirements and criteria but share a common goal of 
transportation for their eligible clients. Coordinating these 
transportation services would encourage efficiency, reduced 
costs through the shared use of personnel, equipment and 
facilities, and thereby improving the level of services for 
current clients and making an expansion of services possible.
    We spend a lot of money on providing transportation 
services at the Federal, State and local levels. It is not 
possible to put an exact dollar amount on the Federal 
investment in human services transportation expenditures 
because 34 of the 62 programs that provide transportation 
services do not require that data be kept on transportation 
expenses.
    Just the 28 Federal programs that do track transportation 
expenses spend a total of $2.4 billion each year. Most of these 
programs require a State or local match for the Federal funds, 
many of them at 50 percent. So the best we can estimate is that 
the combined Federal, State and local annual investment in 
human services transportation is at least $4 billion a year and 
probably much more.
    The Transportation and Infrastructure Committee has been 
concerned for some time about the need for coordination of 
transportation services for special needs populations. In fact, 
the House Public Works and Transportation Committee, our 
predecessor committee, held hearings in March 1977 on improving 
transportation services for the elderly and the disabled. At 
that hearing, then Secretary of Transportation, Brock Adams, 
testified that ``Any program addressing transportation needs of 
the elderly and disabled should include some mechanism for 
coordinating the wide variety of federally assisted 
transportation services currently provided under a number of 
social service programs.''
    Part of the reason we are still talking about the need for 
greater coordination 26 years later is that coordination can't 
be done alone. In the 1998 Transportation Equity Act for the 
21st Century, TEA-21, Congress directed the Department of 
Transportation to coordinate with other human service 
transportation providers. However, if that same message is not 
sent to other Federal agencies that provide transportation 
services, who will DOT coordinate with? A single department 
trying to coordinate alone is like playing a game of catch with 
yourself.
    Many States have agreed that coordination is a desirable 
goal. Approximately one-half of all U.S. States have a 
coordinating body of some kind, though the level of support for 
such coordination and the degree to which coordination is 
required varies widely. So the potential benefits of 
coordination are eliminating inefficiencies, achieving 
economies of scale, stretching limited funds and personnel 
resources, reducing the operating costs for transportation 
providers, expanding services to people not currently being 
served, improving customer service and simplifying the process 
of getting transportation services.
    I hope that when we complete this hearing we will all have 
a clear picture of what is meant by coordination of human 
services transportation, why it is a desirable goal, what some 
of the obstacles are that impede a more coordinated 
transportation system and what some potential options might be 
to improved coordination.
    As the second Ranking Republican Member on both these 
committees I look forward to working with the Department of 
Transportation, Health and Human Services, Labor and Education, 
and with my colleagues to make this a higher level issue for 
everyone involved.
    I would now recognize Mr. Ruben Hinojosa for an opening 
statement.
    Mr. Hinojosa. Thank you very much, Chairman Petri.
    I want to address something very important and speak on a 
critical issue that is of great concern to my constituents. My 
Congressional District in south Texas is very diverse. It is 
both urban and rural. While Hidalgo County is the poorest urban 
county in the Nation, it leads the great State of Texas in job 
creation. Despite this job growth, we still have double digit 
unemployment rates. Many of the poorest residents live in 
Colones which are unincorporated areas with limited or no 
services like water, electricity and paved roads. These 
residents have great difficulty in finding work because of the 
limited transportation options available to them. They also 
have little access to health care and other social services.
    Hidalgo County with a more than 600,000 population has an 
urban and rural bus transit system operated by the State's 
legislatively created Council of Governments, known as the COG. 
The COG works hard to meet the needs of the residents with the 
limited funding it has. It is the fiscal agent for Department 
of Transportation transit funding.
    However, at the same time, transportation services are 
being provided by a number of other entities. For example, 
Region I Education Service Center provides transportation for 
Head Start students; the VA provides limited transportation for 
our veterans, and we have approximately 75,000 veterans in my 
congressional district. The State provides transportation 
through Medicaid and State welfare services and the Federal 
Government is providing transportation through TEMF and other 
programs.
    This patchwork of services is duplicative and wasteful. It 
is also confusing for people who need the transportation 
service. I will be interested to hear what the panelists 
recommend to better coordinate Federal transportation services. 
However, I hope we will also consider ways to allow more 
coordination at the local and regional level.
    In Texas, there are 24 councils of government who could 
serve this function and be the conduit for information about 
every available transportation service through Federal or State 
programs. A one cost source for referrals would allow people 
for these programs are designed to actually get the help they 
need. I am sure other States have similar entities that could 
serve this coordinating function.
    Again, thank you for holding this important hearing and I 
look forward to hearing from the witnesses.
    Mr. Petri. Thank you.
    As I indicated, statements by the Ranking Democrat, Mr. 
Oberstar and the Chairmen of our respective committees, will be 
made a part of the record when submitted.
    The first panel consists of The Honorable Jennifer L. Dorn, 
Administrator, Federal Transit Administration, U.S. Department 
of Transportation; The Honorable William F. Raub, Acting 
Assistant Secretary, Planning and Evaluation, U.S. Department 
of Health and Human Services; The Honorable David Dye, Deputy 
Assistant Secretary, Employment and Training, U.S. Department 
of Labor; and The Honorable Loretta Petty Chittum, Deputy 
Assistant Secretary, Office of Special Education and 
Rehabilitative Services, U.S. Department of Education.
    We welcome you all. As I indicated in my opening statement, 
we are grateful for your attendance and appreciate the effort 
you and your staffs have put into your full written statements. 
We would invite you to summarize in approximately five minutes 
beginning with Ms. Dorn.

  TESTIMONY OF HON. JENNIFER L. DORN, ADMINISTRATOR, FEDERAL 
TRANSIT ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION; HON. 
   WILLIAM F. RAUB, ACTING ASSISTANT SECRETARY, PLANNING AND 
EVALUATION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES; HON. 
DAVID DYE, DEPUTY ASSISTANT SECRETARY OF LABOR, EMPLOYMENT AND 
  TRAINING, U.S. DEPARTMENT OF LABOR; AND HON. LORETTA PETTY 
    CHITTUM, DEPUTY ASSISTANT SECRETARY, OFFICE OF SPECIAL 
   EDUCATION AND REHABILITATION SERVICES, U.S. DEPARTMENT OF 
                           EDUCATION

    Ms. Dorn. Thank you, Mr. Chairman, and a sincere note of 
gratitude for your leadership in this very important and 
complex issue. As reflected in the opening statements, it is 
important because transportation is indeed the lifeline for all 
of us, particularly for those most vulnerable. The elderly, 
persons with disabilities, the low income populations 
desperately need the means to get to critical services, to 
education, to work, to health care.
    As you indicated, more than 60 Federal programs in 8 
Federal departments provide funding to meet these 
transportation needs of individuals. Each program has unique 
eligibility requirements, unique administrative requirements 
and unique funding streams, which is not a bad thing. However, 
these programs growing as they have over the past years have 
given rise to a myriad of human service transportation models 
in our communities. I liken it to a jigsaw puzzle of services 
and providers, not just a jigsaw puzzle at the national level 
but it is duplicated and replicated in very different ways at 
the local level. Even within each local community, fitting 
those jigsaw puzzles together making sure there aren't gaps, 
there aren't overlaps is a very, very complicated system that 
needs to be developed.
    It involves in each local area local transit agencies 
funded by the public, funded by private sector that provide 
both fixed route and paratransit services, non-profit agencies 
operate transportation exclusively for their own clients, human 
service agencies provide funds to individual clients to 
purchase transportation services.
    FTA alone funds more than 600 transit agencies and through 
State agencies over 1,200 non-profit organizations. That is a 
good thing because that means locally they are planned and 
developed to meet the local needs. If you multiply that number 
by 60 other Federal programs that fund some aspect of human 
service transportation and you end up with a 10,000 piece, 3-D 
puzzle that our elderly, people with disabilities and low 
income customers are expected to put together themselves. Those 
barriers as well as solutions exist and we are making progress, 
I am pleased to say.
    At the Federal level, the two agencies that represent the 
largest source of funding are the Department of Health and 
Human Services for transportation and the Department of 
Transportation. I am pleased to say with my sister agency, HHS, 
we have worked together through the Coordinating Council on 
Access and Mobility and we have made some substantial progress.
    I have two notes on this that my colleagues will describe 
further. The use of Medicaid passes for public transportation 
to serve the Medicaid population is a growing utilization 
amongst 23 of our States, and the aspect the Ranking Member 
mentioned about brokerage services where scheduling can occur 
on a combined effort. We have also made some real breakthroughs 
on that.
    With respect to our Local Jobs Access Program which was 
mentioned earlier, we have forged partnerships with the 
Department of Labor and an important system of sharing funding 
and so forth so we can get those critical welfare to work 
populations to work and to other important services.
    In the future, we think it is terribly important to not 
only continue our efforts at the Coordinating Council but also 
to step up our activities. I am very pleased that under this 
Administration that has focused on customer orientation and 
results, that level of effort that is shared by my colleagues 
has already shown some important advancements.
    Two other quick comments. We do have some opportunities 
that I think are very important with the Surface Transportation 
Reauthorization effort that is coming before your Committee on 
Transportation and Infrastructure and there are a number of 
proposals that the President has given to Congress we believe 
would substantially improve our ability to coordinate.
    First and foremost is to encourage partnerships and 
coordination with other State level human and health service 
programs by making the new Freedom Program for Disabilities and 
the Job Access Program State administered and funded by 
formula. We believe to put those programs along with the 
elderly and disabled in a single arena run by the State 
administered programs gives many opportunities for funding 
partnerships with Health and Human Services. So that is a very 
important piece of the President's proposal.
    We also have under the proposal required coordination, 
mandates, if you will. We have said if you want to get the 
Federal money from Transportation, you need to have local 
coordinated plans in place. We feel that is where the Federal 
Government and the customer will get the most bang for the 
buck.
    With the understanding that coordination is not cheap, it 
is not free, it is difficult, we have made eligibility by 
increasing the funds for planning purposes, for coordination 
and also allowed technical assistance to be an eligible 
expense.
    Finally, I would just like to make a comment about 
coordination and how it happens. Effective coordination, in our 
view and I believe our stakeholders who have been very active 
in this would agree, will only happen if local communities make 
it happen. That doesn't absolve the feds from responsibility 
for clearing the way so that kind of thing can happen. 
Ultimately, coordination is a political process, not a partisan 
process but a small political process. It requires building 
trust, building relationships, building partnerships. Otherwise 
people and organizations will be unwilling to share vehicles, 
to broker schedules with their partners, to develop common 
billing policies, all of which serve to be an impediment.
    An important prerequisite of that is that all provider 
groups sit down at the table locally, transit, human service, 
not for profits, private businesses, local government leaders, 
and they need to put the jigsaw puzzle pieces together. In many 
communities across the country, and you will hear from them 
today, they have already done that. I am very proud that 
locally generated spirit has really been working. I would 
commend the stakeholders for their strong interest in this.
    The Council at the Federal level has helped make some real 
progress as well. I hope with encouragement from this Congress 
and with my colleagues, I hope we can make better and faster 
progress because I think it will make a difference for hundreds 
of thousands, if not millions of these vulnerable populations.
    Thank you very much. I look forward to answering questions 
at a later point.
    Mr. Petri. Thank you.
    Mr. Raub?
    Mr. Raub. Good morning. Thank you for the opportunity to 
present testimony on behalf of the Department of Health and 
Human Services.
    In accord with your request, Mr. Chairman, I will now 
present a summary statement and with your permission, submit my 
full statement for the record.
    Mr. Petri. It will be a part of the record.
    Mr. Raub. HHS administers over 300 programs which 
collectively touch the lives of almost every American almost 
every day. Medicaid, Head Start and senior centers are three 
examples. For the vast majority of HHS programs, participants 
must travel to a designated location to receive the health or 
human services for which they are eligible. Thus, 
transportation is often an indispensable means to achieving the 
ends we seek. Expenditures for transportation typically are 
eligible costs under our awards.
    Ensuring appropriate transportation is a continuing 
challenge for awardees and program managers alike. First, the 
transport offered must be tailored to the specific mobility 
needs of individual clients. Diverse requirements require 
diverse approaches.
    Second, to be fully effective, transportation must enable 
clients to arrive at and depart from the service site in a 
timely manner. For some clients, access to services is a daily 
necessity.
    Third, the requisite transportation must be acquired at 
reasonable cost, otherwise imprudent transportation 
expenditures will diminish the resources available for the 
health or human services that the transport is meant to serve.
    HHS recognizes the critical need to coordinate 
transportation services. To that end, HHS staff collaborates 
actively with their counterparts in the Department of 
Transportation and in the Coordinating Council on Access and 
Mobility. Since its formation in 1987, the Council has met many 
times to share information, provide direction and oversight to 
the technical assistance resource network and address real or 
apparent impediments to coordination. HHS also contributes to 
the work of the National Consortium on the Coordination of 
Human Services Transportation which consists of representatives 
from State and local government associations, human services 
organizations and public transportation providers.
    HHS funds the Community Transportation Association of 
America to provide training and technical assistance to States 
and localities on transportation and coordination issues. Now 
in its 13th year of funding, CTAA receives $1 million annually 
to assist HHS in enhancing transportation coordination across 
the Nation.
    Our experience working with States and localities on 
transportation coordination strategies has demonstrated that 
the relationships developed through coordination efforts can 
extend far beyond work on transportation.
    In the President's plan to strengthen welfare reform, the 
Administration has proposed new authority for States to seek 
waivers for integrating funding and program rules across the 
broad range of public assistance and work force development 
programs. Increasing the efficiency and administration of 
multiple programs under this new authority will greatly enhance 
the States' ability to coordinate transportation services for 
low income clients.
    We have provided the committees copies of the action plans 
for the Coordinating Council and Access and Mobility for fiscal 
years 2002 and 2003. Working with the Federal Transit 
Administration as well as with the National Consortium on the 
Coordination of Human Services Transportation, HHS looks 
forward to increasingly productive outcomes from the 
coordination efforts. In particular, we feel confident the 
Council will continue to enhance communication to the field 
through our individual programs, through the Council website, 
and through the relationships developed within the Consortium.
    We applaud your leadership, Mr. Chairman, in highlight the 
importance of transportation coordination and in encouraging us 
to make our investments as productive as possible.
    I would be pleased to respond as best I can to your 
questions or comments.
    Thank you.
    Mr. Petri. Mr. Dye?
    Mr. Dye. Good morning. I too would like to thank you for 
inviting our department to this joint oversight hearing.
    We agree with the committees that access to transportation 
is extremely important for Federal program participants. This 
is particularly true for recipients of employment training 
services since training and job opportunities often are not 
located where participants reside.
    The Department of Labor employment and training programs 
provide transportation assistance to its clientele and includes 
12 programs administered by the Employment and Training 
Administration under various laws such as the Work Investment 
Act, the Older Americans Act, and the Trade Act. It also 
includes the Homeless Veterans Reintegration Program and the 
Veterans Workforce Investment Program administered by DOL's 
Veterans Employment and Training Service.
    Of the 12 ETA programs, only the Job Corps is administered 
directly by ETA. All the other programs are formula funded 
grants to States and localities or discretionary grants to not 
for profit entities. Many of these programs make funds 
available to cover the cost of transportation services most 
often in the form of mileage reimbursement and/or public 
transportation fares but also through a variety of other 
mechanisms.
    Although many of the employment and training related laws 
permit transportation services, funds are generally disbursed 
to State and local areas that exercise a high degree of 
discretion in designing transportation policies to meet the 
needs of their communities. Consequently, the amount and type 
of coordination varies from community to community.
    Although we do not collect data nationally, there is 
undoubtedly more informal, unreported coordination going on at 
the local level than has been recently documented. We need to 
build on those efforts.
    I would like to briefly describe a couple of coordination 
efforts in which we have been involved most recently. We have 
been finding ways to partner with other Federal agencies, 
including the departments sitting at the table, as well as 
service providers to enhance local coordination for 
transportation services.
    In addition to the previously mentioned programs, for many 
years, ETA and the Federal Transit Administration have jointly 
provided grant funds to the Community Transportation 
Association of America for Job Links, a program designed to 
help communities overcome transportation barriers that prevent 
low income people from getting and keeping jobs.
    With these funds, CTAA addresses vital employment 
transportation issues through demonstration projects, technical 
assistance and conferences. The demonstration projects are 
aimed at integrating transportation services into the DOL 
funded, one-stop career centers operated by States and local 
boards.
    Speaking of technical assistance, I brought with me today 
and hopefully the Clerk distributed to you this CD ROM which we 
funded with CTAA. It is essentially a tool kit to help local 
work force agencies understand and respond to their 
transportation challenges. The tool kit includes sections 
describing the relationship between jobs and the transportation 
they need. I hope you and your staff get a chance to take a 
look at that.
    In addition, the President's new Freedom Initiative 
demonstrates the Administration's commitment to the full 
inclusion of people with disabilities into the American work 
force. Once again, the Department of Labor and the Department 
of Transportation have partnered to help implement this 
initiative. Last summer, the Department's new Office of 
Disability Employment Policy and FTA co-sponsored a national 
summit on employment transportation for people with 
disabilities. The purpose of the summit was to explore 
strategies for integrating transportation into local employment 
networks and to identify opportunities for Federal 
transportation programs to be more responsive to the employment 
needs of people with disabilities.
    The overarching conclusion of the summit was that there was 
a critical need for increased coordination of efforts at all 
levels and not surprisingly beginning with our own agencies.
    One of the most important activities of this Administration 
and one of the areas in which we have had the most success is 
to promote interagency collaboration at the Federal level that 
can be transferred to the State and local levels. To this end, 
the Departments of Labor, Transportation and HHS issued a Joint 
Interagency Guidance on Transportation Services funded by TANF, 
Welfare to Work and DOT's Job Access and Reverse Commute 
Program.
    Through the Joint Interagency Guidance, we encouraged our 
respective agencies to jointly plan and develop systemic 
transportation solutions and provide guidance to State and 
local areas to establish collaborative regional approaches to 
job access challenges. Ongoing collaboration and coordination 
among multiple agencies at all levels of service, Federal, 
State and local, is essential. We simply cannot expect local 
agencies and providers to coordinate their services if we do 
not do the same at the Federal level. A number of Federal 
agencies obviously have already begun to work cooperatively 
including DOL.
    By way of conclusion, let me say through coordination, it 
is possible to leverage resources by realizing cost savings and 
eliminating duplication for the efficient delivery of services 
for all of our customers. The Department of Labor is committed 
to working with all of our Federal, State, local and not for 
profit partners to improve the coordination of transportation 
services.
    We recognize that accessible and affordable transportation 
is a critical component of the successful employment of people 
with disabilities and age related conditions or an income 
constraint.
    That concludes my remarks. I would be happy to answer any 
of your questions.
    Mr. Petri. Thank you.
    Ms. Petty?
    Ms. Petty. Thank you also for the opportunity to appear 
before you today to discuss the issue of transportation 
coordination for human services programs.
    The Office of Special Education and Rehabilitative Services 
within the U.S. Department of Education is responsible for 
administering several vital Federal programs dedicated to 
improving the lives of individuals with disabilities from birth 
through adulthood. Our programs range from early intervention 
services for infants and toddlers and special education 
services for pre-school and school age children to employment 
and independent living programs for adults with disabilities.
    Transportation for individuals with disabilities is 
important across the life spectrum. Without transportation 
services, including specialized services tailored to their 
needs, children with certain disabilities would not have access 
to crucial medical care and would not be able to participate in 
school and in the community. Without adequate means of 
transportation, many adults with disabilities would never be 
able to achieve competitive, integrated, meaningful employment 
or to fully participate in the community.
    For many individuals with disabilities, reliable, 
appropriate, accessible and timely transportation is not just a 
luxury, it is a vital link to education, employment, 
independent living, health care and community integration.
    Some of the programs we administer within OSERS allow for 
the provision of limited transportation services consistent 
with the goals and purposes of the program. For example, the 
Individuals with Disabilities Education Act requires that 
transportation and other related services be provided if 
necessary to assist children with disabilities to benefit from 
special education. Students with disabilities are regularly 
provided transportation services by school districts and other 
transportation entities.
    Also, under the Rehabilitation Act of 1973, transportation 
expenses or services are an allowable expense in order to allow 
vocational rehabilitation consumers to access the 
rehabilitation and training services listed in their 
individualized plan for employment.
    The provision of transportation services under programs 
administered by OSERS varies from contract for services 
arrangements to referral assistance and training for 
individuals with disabilities on the use of public 
transportation. Through efforts such as referral and training, 
our programs help individuals with disabilities learn how to 
access existing transportation resources or how to obtain 
necessary special transportation services. In some instances, 
these services mean the difference between leading a life with 
few options for personal and professional growth and leading a 
life of meaningful and significant integration within the 
community.
    For children with disabilities, transportation is often a 
key factor in ensuring that a free, appropriate public 
education is provided to them. The IDEA is based on the premise 
that children with disabilities should be able to participate 
fully in the educational experience along with their non-
disabled peers.
    School districts may use any one or a combination of 
methods to provide services to children with disabilities. 
These methods include using the district's existing school 
transportation program, contracting for special transportation 
services, or using the public transportation systems. A child 
with a disability receives transportation as a part of their 
individualized education program.
    Regardless of the means of providing transportation 
services, we know that without these services, many children 
with disabilities would not be able to participate in either 
the educational or social experiences of school.
    Because of the nature and variety of the programs we 
administer within OSERS, it is difficult to determine with 
specificity the cost of transportation services. In many 
instances, school districts include the cost of transportation 
for students with disabilities within the general cost for 
transportation for all students and do not report these costs 
separately to the Federal Government.
    However, we do have transportation cost data for special 
education from a national study of transportation costs for 
school year 1999 through 2000 conducted by an OSERS contractor 
as part of the Special Education Expenditure Project. This 
project found that during that time, school districts spent 
nearly $3.7 billion on special transportation services.
    For other programs such as the Vocational Rehabilitation 
Program, States provide some data on transportation costs. For 
example, in 2001, State vocational rehabilitation agencies 
reported spending $69.4 million on transportation to assist 
customers.
    Many children with disabilities in their families and many 
adults with disabilities need and receive services through 
multiple programs funded by the Federal Government. It is not 
uncommon, for example, for a child with a disability to not 
only receive special education services but also Medicaid 
services, SSI payments, community mental health services, or 
other services sponsored in part by the Federal Government.
    In some instances, there may be strong collaboration at the 
local or State level to ensure that transportation services are 
coordinated or even provided through a central source. In many 
cases, coordination may be difficult. For example, coordination 
of transportation services for both children and adults with 
disabilities in rural settings is likely more difficult than in 
urban settings.
    Also, a person with a disability who uses multiple 
transportation service providers for different purposes may be 
compelled to deal with different policies and procedures. 
Nonetheless, given the importance transportation plays in the 
lives of millions of individuals with disabilities, both 
children and adults, it is important that those of us who are 
responsible for developing policy and providing those services 
cooperate and collaborate in ways that will ensure that needed 
transportation services are provided in the safest, most 
reliable, appropriate and timely manner and that those services 
are accessible to the individuals who need them.
    Although coordination and collaboration for the provision 
of transportation services for individuals with disabilities is 
most effectively done at the local level where the need exists, 
it is clearly important that we at the Federal level ensure 
that our programs recognize this important need.
    We at the Department of Education look forward to achieving 
these goals by working with our Federal partners in any way we 
can.
    Thank you for having me here today and I look forward to 
answering any questions.
    Mr. Petri. Are there any questions? Mr. Oberstar?
    Mr. Oberstar. Thank you.
    First of all, I want to congratulate you on launching this 
hearing in your dual role as Vice Chair of our committee and 
the Committee on Education.
    I would like to say that this is a new subject and new 
ground we are exploring, but it is an old subject and old 
ground that we are plowing once again. It was first explored in 
this committee in 1977 as the Chairman may have pointed out, I 
regret having missed the opening, with then Secretary of 
Transportation, Brock Adams who said, we need to have a 
coordinating mechanism to bring together all these several 
Federal Government programs that provide transportation to 
people in various categories.
    That lumbered along for quite some time and a few years 
later, I chaired the Investigations and Oversight Subcommittee 
and with our former colleague, Bill Clinger, as the Ranking 
Republican on the subcommittee, we looked into that matter in 
May 1985 and brought together the same assemblage of agencies 
to give us pretty much the same testimony, a plethora of 
Federal Government programs. At the time, there were 137 
different Federal programs that provided transportation 
services and they weren't talking to each other in performance 
of their duties and the cost collectively was some $980 
million. Eighteen years later and it is $2.5 billion, 62 
million people affected, 62 separate programs, 8 departments, 
23 programs in Health and Human Services, 15 in the Labor 
Department, 8 in Education, 6 in DOT.
    Then I said at the opening of our hearing, ``Federal 
Government operates 32,000 vans and small buses to serve a 
population group dependent upon transit. Yet no safety or 
driver training is provided for those who do the driving. There 
is no coordination among those who are providing the 
services.''
    The witness from Urban Mass Transit Administration said, 
``Clearly, we need to coordinate activities of the several 
agencies. We need to coordinate rural programs with those of 
Health and Human Services, with those of the Department of 
Education and our own Department of Transportation.``
    The Coordinating Council was set up as a consequence of 
those hearings.
    It doesn't seem to me that much has improved in the years 
since we launched those first hearings. I would like to know, 
do you folks meet regularly? Do you ever get together and talk 
to each other about performance and delivery of transportation 
services and coordinate and have common values and common 
standards for delivery of services, and training of personnel 
to deliver those services?
    Ms. Dorn. I would like to respond on behalf of the Transit 
Administration with respect to your very good points. Certainly 
this has been a continuing problem but there is good news and 
bad news in that respect. Because the Congress and the 
Executive Branch has increased its commitment towards these 
vulnerable populations, the growth in the number of programs 
has grown exponentially. So each time we make progress in 
coordination, another branch of the government creates another 
program for very good reasons. So this is going to be a 
continuing problem as we grow the number of programs.
    We share part of that responsibility in the Federal Transit 
Administration. We have three or four different pots of money 
through various pressures from our own Administration or 
through stakeholders we continue to create specific 
requirements for eligibility, for reimbursement, for tracking, 
for billing. So we all share in the creation of the problem, 
yes. I can say by the data that we do have, we have also 
substantially improved the transportation services to the 
eligible population over the years.
    Yes, a short answer in terms of our meeting together across 
the agencies. I think there is a renewed commitment towards 
that and with the Coordinating Council, we have specific action 
plans with specific outcomes that will help clear the way so 
that at the State and local levels, they will be freer to 
coordinate.
    I mentioned earlier this is a very, very tough and 
complicated nut to crack, not only on the Federal level, we can 
provide as much technical assistance and best practices for the 
States and the communities that are doing it, but ultimately 
there also has to be a political will at the local level 
amongst all these agencies whether the Alzheimer's Association, 
the Medicaid transportation provider, the public transportation 
provider, that they want to share resources.
    Mr. Oberstar. Thank you. I appreciate your enthusiasm. You 
always bring a great deal of energy and enthusiasm to your 
service in the public sector. I welcome that.
    In TEA-21, we directed the establishment of an assistant 
secretary position for intermodalism. That would be the 
appropriate place it seems to me to start with coordination. 
Maybe we ought to put you in that position because you have 
that energy and enthusiasm and excitement about your work.
    I would suggest you go back and all of you coordinate with 
Jeff Shane who understands this issue and who was the first 
intermodalist in a previous Administration, in the first Bush 
Administration and find some ways through perhaps his 
intercession all of you can come together, bring together these 
three departments of Government.
    It has grown from the cost of the service and the 
investment we are making in rural America has grown from $980 
million 18 years ago to $2.5 billion today. There ought to be 
common standards, we ought to be able to eliminate overlapping 
authorities and see who can deliver services the best.
    A great deal of good has been accomplished and some of it 
by accident. It ought to be done on purpose. I think you will 
achieve that goal if you do as was promised this committee 18 
years ago, the Coordinating Council would be set up, we will 
meet regularly, we will establish standards, see that everybody 
has common training, safety and delivery of services, not only 
at the Federal level but to the State and local levels as you 
just said, Ms. Dorn.
    That would be my message and my urging to this panel and to 
the DOT and several departments of Government.
    Mr. Petri. Thank you.
    Mr. Pearce?
    Mr. Pearce. Thank you for having this hearing. My question 
is for Mr. Raub.
    In your transcript, you talked about checking the cost of 
services. Don't you have a couple of large either regional or 
national contracts for providing services?
    Mr. Raub. I am not sure which you are referring to.
    Mr. Pearce. I am asking don't you have a couple, it is not 
scattered taxi services around the country but you have 
providers that you contract with?
    Mr. Raub. Not to my knowledge, sir.
    Mr. Pearce. My question would be how do you provide those 
services?
    Mr. Raub. Typically they are provided through either the 
States or the local agency that is the recipient of our funding 
and arrangements are worked out in the community. One of the 
challenges for coordination as Ms. Dorn indicated is to take 
advantage of the local transit planning in a way of ensuring 
that our funded activities are not entering into transport 
services that duplicate what might be provided by fixed route 
transportation, for example. The Medicaid Program is a special 
example of that.
    Generally, these decisions are at the State or local level 
in association with carrying out whatever particular block 
grant or activity there might be.
    Mr. Pearce. My question would be if you have providers, how 
do you cross check that cost because I hear some extreme costs?
    Mr. Raub. Each of the programs differ in terms of its 
reporting requirements. As a general rule, one of the concepts 
around the block grants has been to keep to the minimum 
necessary the reporting burden for the particular recipient 
States. Often the transportation cost is included in a larger 
aggregate such as supporting services. We in the States then 
have to work to tease out what subset of that is actually a 
transportation specific cost.
    One of the needs in improved coordination is finding better 
ways not only to simplify reporting burden but to standardize 
it such that we can capture this kind of information 
consistently not only across HHS programs but with our 
colleagues in the other departments.
    Mr. Pearce. My final question would be if you could provide 
me some of the cost detail structure, if you put that as one of 
your objectives to be able to identify the costs are definitely 
not too high for a give service and if you have that, I would 
appreciate it.
    Mr. Raub. Yes, sir. We would be happy to provide it.
    Mr. Petri. Mr. Hinojosa?
    Mr. Hinojosa. I would like to ask Ms. Dorn how often does 
the Coordination Council meet?
    Ms. Dorn. Up to this point in this Administration, we have 
had one meeting. I would like to emphasize, however, that the 
number of meetings is really not reflective of the continued 
and aggressive activities that we have undertaken as a group 
and individually, particularly with our colleagues at HHS.
    Under the Administration on Aging, we have a very refined 
outcome oriented action plan for 2002 which we have already 
accomplished a number of things which we would be happy to 
provide to you. We have done a number of other coordinating 
efforts on a bilateral basis.
    Mr. Hinojosa. Let me interrupt you because my time is going 
to get away from me.
    If you have only met once in two years, I understand that 
only HHS and the Department of Transportation have been 
meeting. When are the other organizations going to be invited 
to the table?
    Ms. Dorn. From my perspective, I am very pleased to include 
other agencies. I would hope you and your colleagues would 
judge our efforts by the outcome rather than whether or not we 
have had a meeting. I can sincerely ascribe to the fact there 
have been very aggressive efforts on this coordination effort 
and we made a conscious decision a year and a half ago with 
some of the senior leadership at HHS that we would not have a 
meeting amongst all these partners until we had some solid 
accomplishments and models to demonstrate so that we could 
motivate all partners at the table. I feel we had a very 
successful meeting, it was very motivating to all partners.
    We are not going to make progress on a group grope kind of 
basis, it has to be targeted to each of these programs. I feel 
that with the firm commitment of my colleagues, we will 
continue to make progress and we are eager to show you what we 
have done to date and our action plans for 2003.
    Mr. Hinojosa. If all due respect, I come from the world of 
business and when something is not working, I think we need to 
try something different.
    Let me tell you about the region of South Texas from 
Brownsville to McAllen to Laredo. That area has almost 1.5 
million people. We have been neglected so long, we have never 
been to the table, we have never had transportation addressed 
for so many of the Colonias and so many of the people who are 
unemployed and they can't even get to the training much less 
get a job.
    If some of my constituents need service, who are they 
supposed to call?
    Ms. Dorn. That is part of the problem. I would like to say 
it depends on the agency. That is why the working groups that 
are subgroups of this Federal Council have been meeting 
regularly over two years. We would be very pleased to provide 
for your area technical assistance and plans and models about 
how they can coordinate. This has to be the level of effort at 
every different agency.
    Mr. Hinojosa. These areas that I am talking about are 
growing faster than most other regions of the country because 
of NAFTA, so we need for areas like ours that have been 
neglected for three decades where we have had double digit 
unemployment rates compared to the State of Texas or 
nationally, we need them in higher priority and have some 
meetings with the five Congressmen who represent that area and 
see if we can bring some solutions to this problem like you 
have given other regions of the country.
    Neglect is something that needs to go into the record 
because let me tell you, there is a lot of potential if they 
would just be given an opportunity to get to the training and 
to their jobs.
    Ms. Dorn. I totally agree with you, Congressman, and that 
need is recognized by this President and that is precisely why 
he supported a 20 percent increase in rural transportation 
funds because of those very important unmet needs in rural 
areas. I completely agree with you.
    Mr. Hinojosa. Thank you.
    Mr. Petri. Thank you.
    Mr. Boozman?
    Mr. Boozman. I guess I share similar concerns. We have 62 
Federal programs that perform these types of functions. Only 32 
of them, we actually know how much they spend, so it appears we 
really don't know how much money we are spending on this. Does 
the Council have any authority?
    Ms. Dorn. It has no statutory authority.
    Mr. Boozman. I guess I am saying is there anybody with any 
real authority that is trying to coordinate this thing?
    Ms. Dorn. Not from a 30,000 foot perspective. Each 
congressional committee and each departmental agency has its 
own statutory mandates and regulations.
    Mr. Boozman. Do we need to change that?
    Ms. Dorn. Speaking from the Department of Transportation 
perspective, there are several things the President and the 
Secretary have proposed in our reauthorization.
    Mr. Boozman. Like what?
    Ms. Dorn. One of which would be the mandate to a local 
community that if in fact you want Federal money that players 
at the local area need to sit down and coordinate a plan. We 
believe fundamentally the more flexibility we can give to the 
local agencies too coordinate, and there are some regulatory 
barriers we are working through, but from the Department of 
Transportation perspective, we don't see any statutory 
impediment.
    Mr. Boozman. That is the local level. What about 
coordination between the 62 Federal entities providing 
transportation?
    Ms. Dorn. I think we need to take on those problems as we 
have program buy program. That is the kind of progress we are 
making.
    Mr. Boozman. But if there is nobody with any authority to 
do that, how do you do it with the turf battles?
    Ms. Dorn. You do it by focusing on the customer and the 
outcome. That is what each of my colleagues and their agencies 
have been doing. When we sit down in the working group with the 
Administration on Aging, we ask what is preventing more service 
for more riders? It doesn't take a rocket scientist to see when 
you have billing requirements that seem to be different, we can 
sort them through.
    Mr. Boozman. The council only meets with a small group. You 
only represent a small group of the 62 entities providing this, 
correct?
    Ms. Dorn. Yes, sir.
    Mr. Boozman. My question is how do you get those 62? I am 
sure the areas you are visiting, you are doing some good. I 
don't disagree at all. My question is how do we get those 62 we 
have created, I am not saying it is your problem, but since we 
have this problem being in the situation you are in, how do we 
fix that? I think you would agree there is duplication of 
services. We don't even know how much money we are spending on 
this. How do you coordinate that?
    Ms. Dorn. In this case, creation of a Department of 
Homeland Coordination would not do the trick. We have so many 
different missions that are appropriate. Transportation is an 
important component and if we can get all to recognize on a one 
by one basis as we continue to do.
    Mr. Boozman. I didn't say we needed to create a department, 
you said that. I guess I am saying give me some help, what do 
you think is the answer? You have the Council that represents 
just a little bit. The vast majority of these people aren't 
even represented. How do we change that? What do we do?
    Ms. Dorn. First of all, the major programs that would yield 
the biggest bang for the buck for our customer are at the 
table. We are happy to make that a broader group. There is no 
substitute for an individual Secretary making this a priority. 
I can speak for Secretary Mineta who has made it a priority. 
Each Secretary in turn, if and when they do, and I feel 
confident in my working relationship with many of these program 
leaders, it is a priority. I don't see any short circuit way to 
make this problem go away. It requires goodwill from the 
stakeholders which we have and the National Governors 
Association, AARP. That is the only way you can crack the nut.
    Mr. Boozman. The other side of that is Mr. Oberstar said 
basically this has been going on since he can remember. Do the 
rest of you have any comments?
    Mr. Raub. Picking up on the earlier comments, the Council 
has spawned activities in four areas for special emphasis 
recognizing that one size doesn't fit all and one has to hone 
in on the specifics. The collaboration with the Administration 
on Aging and the Department of Transportation is proving to be 
very valuable in terms of understanding the opportunities for 
coordination and making sure that not only the agencies but in 
the community levels there is the right information and the 
right kind of technical assistance being provided.
    A similar story plays out in the Medicaid Program of making 
sure of fixed route transportation. In one community alone, 
getting only one percent of the Medicaid eligible individuals 
covered by a transit pass produced a $6-$7 million per year 
savings. We think that can be replicated and extended in other 
areas but one needs to have the specific knowledge and specific 
involvement of those program leaders. These are all high 
priorities for Secretary Thompson.
    An emerging area in the disability community, the new 
Freedom Initiative, involves a number of activities including 
the opportunity for waivers that would allow greater discretion 
and flexibility among the recipients of the awards and how they 
spend them for transportation.
    Last but not least, the Department has identified a number 
of the special needs in the rural area, health and human 
services and the special subset of those problems that are 
transportation dependent.
    I am optimistic that there are a number of ongoing efforts 
that have the strong support of the two Cabinet officers and 
you will see some action and there doesn't need to be new 
legislative authority for that to occur.
    Mr. Boozman. Thank you.
    Mr. Petri. Ms. Norton, any questions?
    Ms. Norton. No, thank you.
    Mr. Petri. Mr. Van Hollen, any questions?
    Mr. Van Hollen. No.
    Mr. Petri. Mr. Porter?
    Mr. Porter. Thank you and I reiterate the comments from 
earlier that this is a great meeting to have to coordinate the 
efforts. Being one of the members that serves on both 
committees, Transportation and Education, it is an opportunity 
for me to talk a bit about some of our challenges in Nevada.
    As you may know, Nevada is one of the fastest growing 
States in the country. In some areas in Nevada we can grow 
5,000 or 6,000 people a month. To add to that fact we are one 
of the fastest growing school districts in the country being 
the sixth largest in Clark County. We need to hire about 2,000 
plus new teachers a year, which is a challenge, believe me. We 
need to build one and a half to two new schools a month to stay 
in front of the massive growth.
    We are proud of what we have done in Nevada. However, from 
a key perspective of funding education, including 
transportation, for a fast growing State, and I know one of my 
colleagues from Texas mentioned it earlier, a lot of the 
Federal funding takes three to five years to follow the child. 
In fairness to my colleagues in the northeast, in Iowa or the 
midwest, as children are moving to Nevada and California and 
Texas, their funding remains in those States. So it creates a 
major challenge for us. If you were to take 27,000 new students 
a year, which is what we have, times three or four years, that 
is 100,000 plus kids that Federal funding is remaining in other 
States.
    Having said all that, we also have some very, very small 
school districts. We have a total of 17 school districts in 
Nevada, one per county, somewhat over 1,000 kids and some with 
almost 300,000 kids. So imagine the frustration of some of our 
school board members whether in White Pine County or in Humbolt 
County, Iowa trying to chart their course.
    I know we have talked about coordination this morning, but 
I know how difficult it is with 62 programs in 8 Federal 
departments. However, I would ask if maybe we could have one of 
those departments or one of those agencies help facilitate for 
these districts as they try to chart a course to get help with 
their transportation needs. I know it was in your testimony and 
I appreciate it. I see moms and dads here today and we could 
talk about individual children that need transportation, but 
can't we just find one of these agencies to help be a one-stop 
shop for one call by a school board member from Humbolt, Iowa 
or White Pine, Nevada who is struggling? Some of these school 
board members are the chief cook and bottle washer, they do 
everything. If you mention the Federal Government, they panic 
because they have no clue who to call. Can't we find one of 
these 62 agencies to at least be the contact point to make it 
easier for our moms and dads and school boards to take care of 
transporting these children that desperately need our help?
    Ms. Dorn. If I may, I think it is an excellent point. The 
concept of one-stop shopping has become a very important one in 
I think at least 18 States where instead of having the parent 
or the customer have to sort through the many varied approaches 
of locally driven transportation, which I think is a good thing 
because it can be community-based, they have set up 
transportation brokerages where you as a parent, consumer or 
Medicaid recipient can call a specific number and indicate your 
need. All of the behind the scenes sort of what are the needs, 
what are the billing requirements are done behind the scenes, 
so it is more customer friendly.
    Those brokerages, as Mr. Raub indicated, the Medicaid 
Transit Pass Program, the Brokerage Program are two very 
prominent success stories we would be eager to model throughout 
the country. It is nothing that we believe is appropriate to 
mandate, nor is it possible but if there are ways we can give 
to local communities and to States permission and eagerness to 
do this, that would be a good thing.
    Mr. Porter. How many employees are there at the Department 
of Transportation? Thousands?
    Ms. Dorn. Yes, thousands. There are 700 in the Federal 
Transit Administration.
    Mr. Porter. Can we find one department in the 
Administration without legislative mandate to coordinate and at 
least be a one-stop for transportation?
    Ms. Dorn. Speaking for Transportation, the fundamental 
principle of locally driven transportation needs is imperative. 
If we start layering the Federal solution, I just don't think 
that would work.
    Mr. Porter. I think the local governments should take care 
of it. I don't know the last time you were all sitting in a 
small school district in rural United States of America and 
trying to chart a course through the Federal bureaucracy - it 
is a nightmare. I agree they should do it on the local level 
but they don't know who to talk to, who to ask or they may not 
get a phone call. Can't we find someone in the Department 
administratively just to help coordinate this so that Mary 
Bescow, a school board trustee from Nevada can call one number 
and that person can help point her to the agency to call? Can't 
you find ten people?
    Ms. Dorn. Certainly we make every effort to do that in the 
Department of Transportation. I am sure we can be a resource 
but where the rubber hits the road literally is the local 
transportation where it is provided. If we can make it easy for 
the customer to find out where that is and be responsive, we 
are all about that. Our stakeholders have helped us do that.
    Mr. Porter. Who do I need to talk to?
    Ms. Dorn. We are talking now and I would be very happy to 
follow up personally with anyone you suggest.
    Mr. Porter. I appreciate that. Please understand, I am not 
trying to be adversarial, I am trying to make it simple. I 
appreciate your comments this morning and I know you are 
responsible for a huge agency, but Mary Bescow, the school 
board trustee in Nevada, is worried about those kids, as you 
are, but they don't know who to call. If maybe you could put 
together a plan or a few of your folks could spend a little bit 
of time just being a clearinghouse telling people where to 
call, I would appreciate that.
    Ms. Dorn. I would be happy to work with my colleagues from 
the Education Department.
    Mr. Porter. I appreciate that.
    Mr. Petri. I think you are trying to help in that area 
somewhat with the idea of having coordination at the State 
level with the locals in this bill. I have a specific question 
of all of you which you don't need to respond to at this point 
but I have repeatedly been urged to ask it by our staff because 
as we work on this legislation, we need some specific 
assistance in a number of areas.
    We would ask you to review the General Accounting Office's 
testimony from today and determine of the recommendations and 
obstacles to coordination, which can be implemented or overcome 
under your current regulatory authority and which require a 
change in law? That is our department here.
    Please send this analysis to both committees. Upon issuance 
of the final report by GAO in June, if any new or additional 
obstacles or recommendations are made, please update your 
analysis accordingly. We are trying to do our job and we need 
your help. We would appreciate your making this a priority 
within the congressional schedule.
    Thank you all for appearing before us today and we look 
forward to working with you.
    Mr. Petri. The second panel consists of Ms. Kate Siggerud, 
the Acting Director, Physical Infrastructure Issues, U.S. 
General Accounting Office to which I just referred.
    We appreciate the effort that went into your prepared 
statement and we look forward to your summarizing it in 
approximately 10 minutes.

  TESTIMONY OF KATHERINE SIGGERUD, ACTING DIRECTOR, PHYSICAL 
     INFRASTRUCTURE ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Ms. Siggerud. I would like to start today by thanking the 
Chairmen and members of both committees for holding this 
hearing. I was very pleased to see so much quoting of our 
research and our statement. I feel like I may be repeating a 
bit of what you heard but I will try to reinforce it.
    As the other witnesses have emphasized, certain segments of 
the American population have limited mobility because of 
difficulties they face in providing their own transportation or 
in accessing transportation provided by others. The Federal 
Government has a long history of improving mobility for these 
populations but has faced a challenge in coordinating 
transportation services the Federal agencies provide even when 
these services are similar in nature.
    Accordingly, my statement today will address three 
questions. First, which Federal programs provide transportation 
services; what type of services do they provide; and how much 
is spent on them? Secondly, what are the effects of 
coordination or lack of coordination on programs and their 
clients. Third, are there any obstacles to effective 
coordination and if so, what are some options for overcoming 
them?
    I would like to start with some context before answering 
these questions. We focused our work on the transportation 
disadvantaged, those who have difficulty providing their own 
transportation usually due to a disability or an income or age 
related constraint. These populations are sizable and growing, 
especially the elderly population.
    For example, in 2001, there were 35 million people over the 
age of 65, 45 million adults with a disability and 34 million 
below the poverty line. Coordination of transportation services 
is a growing focus among human service agencies because the 
aging population coupled with Federal and State budget 
constraints are challenges for these agencies. As a result, it 
is important to ensure that transportation services are 
provided in a high quality and efficient manner so that these 
program resources can be focused on their primary mission.
    Coordination of transportation services across Federal 
programs through approving resources, consolidating 
transportation services under a single agency or provider or 
sharing information among these programs can increase the 
quality and cost effectiveness of transportation services.
    Starting with my first question, we found that 62 Federal 
programs located in 8 Federal agencies can fund transportation 
services for the transportation disadvantaged. These have their 
origin in more than 20 Federal statutes. The Department of 
Health and Human Services has the greatest number of programs 
with 23, Labor has 15, Education has 8 and Transportation has 6 
such programs. The other programs that have transportation 
services as a component include Agriculture, HUD, Interior and 
Veterans Affairs.
    The Federal programs we reviewed funded transportation 
services provided in several different ways. Typically, these 
services were provided through State or local governments using 
a combination of Federal, State and local funds. Some Federal 
programs simply enable clients to use existing systems through 
providing transit passes or taxi vouchers. Others contract for 
service with transit systems or private companies who own 
appropriately equipped vehicles such as vans or small buses.
    Finally, some programs provided funds to directly purchase, 
modify and/or operate vehicles for their clients. Several 
programs, such as TANF, provide a considerable leeway for 
States to use any of these options.
    The cost of providing these services can be substantial but 
the data on costs are poor. Twenty-eight of the 62 programs we 
identified spent a total of at least $2.4 billion on 
transportation in 2001. Even for these 28 programs, we believe 
this is a low estimate because several of the programs provided 
only partial estimates. However, the primary reason these 
estimates are low is that 34 other programs do not distinguish 
spending on transportation from other spending. This is mainly 
because the recipients or grantees are not required to report 
such information to the Federal Government.
    Several of these programs, such as the Department of 
Labor's Work Force Investment Act Program, are known to have 
transportation as an important component but could provide no 
information to us.
    The amount of State and local spending is also unknown but 
likely significant. For example, most of the programs we 
reviewed require States and local governments to match from 5 
to 50 percent of program expenditures, including for 
transportation.
    Turning to my second question, we identified several States 
and localities that had taken steps to coordinate the 
transportation services provided by at least a portion of the 
Federal programs we reviewed. These include activities such as 
sharing vehicles, consolidating some services under one 
provider, using a brokering service or simply sharing 
information about overlapping services.
    Several localities we visited had experienced significant 
benefits. Starting with quality improvements, in a New York 
county collaboration and cost sharing led to service 
improvements for clients of Medicaid and elderly programs, 
including being able to transport additional clients for the 
same number of resources.
    With regard to financial benefits, a South Dakota transit 
agency reduced average cost per trip by approximately 20 
percent by coordinating and as a result was able to extend its 
hours of service.
    We also found that States or localities that have not 
implemented a coordinated system sometimes experienced 
problems. Let me start with overlapping services. We found that 
multiple vehicles operated on similar routes at nearly the same 
time as shown in this map of South Falls, South Dakota. Among 
the seven agencies portrayed on this map are two vocational 
rehab programs, as well as agencies serving low income clients 
and clients with disabilities.
    Based on these findings, the local agencies hired a 
consultant to recommend opportunities for collaboration and how 
to improve service.
    With regard to fragmentation, providers must often 
establish separate accounting and dispatch systems to comply 
with different Federal reporting and eligibility requirements, 
even though clients are receiving similar services.
    Finally, with regard to confusion, users can be overwhelmed 
by the sheer number of programs. For example, a senior citizen 
faces the prospect of making different arrangements for 
medical, senior center and personal trips. In addition, 
providers sometimes have difficulty knowing who is eligible for 
which kind of service.
    Turning now to my final topic, we identified a number of 
obstacles to improved coordination. Starting with eligibility, 
Federal program rules specify the eligible populations that 
each program can serve. Therefore, there may be liability 
issues when a vehicle transports individuals from other 
programs. In addition, there are differing safety standards. 
These differences hinder schools, human service agencies, and 
public transit providers that have an interest in sharing 
vehicles.
    With regard to funding streams, some Federal program funds 
flow through the State, others to local government and others 
directly to grantees, causing difficulties in coordination. In 
addition, funding cycles differ among these programs.
    Finally, I will cover accounting and reporting 
requirements. Federal agencies require grantees to report 
different types of information. The paperwork can be 
considerable. For example, a provider may be required to 
provide many different types of documentation.
    Program administrators also expressed concern about losing 
control over the quality and convenience of transportation 
services they provide. In addition, some clients fear having to 
change providers or type of service. There are also concerns 
over mixing populations such as sick and healthy clients. 
Officials and experts also noted that coordinating 
transportation requires time, effort and resources but also 
noted it can result in savings.
    Limited guidance and information on coordination at the 
Federal and State level is available. The Coordinating Council 
on Access and Mobility, which the previous witness referred to, 
is expected to coordinate among Federal programs including 
guidance and information to States and localities. However, it 
has limited visibility and includes only two of the eight 
agencies we identified that provide transportation services. 
For example, State officials said they sometimes had difficulty 
finding the Council's guidance.
    At the State level, only about half the States have any 
kind of counselor organization for sharing information and 
working through problems. Officials in many of the local areas 
we visited said a lack of State leadership was the major 
obstacle.
    Finally, I will wrap up on a more positive note with some 
options for improving coordination. We identified several 
options that might be appropriate at the Federal, State or 
local levels, some combination of these options may be 
appropriate depending on the program in question.
    Harmonizing standards for eligibility, reporting and safety 
and establishing compatible funding cycles would make a 
difference. Any changes in standards has to be balanced against 
the needs of the specific populations these programs serve.
    With regard to communication and guidance, options include 
expanding the membership of the Coordinating Council to include 
other agencies, linking the Council's website to additional 
agency web pages and providing guidance to States and other 
grantees regarding allowable use of funds.
    Finally, incentives and mandates are an option that 
conclude providing funding incentives that give priority to 
agencies that take steps to coordinate their transportation 
services, requirements to coordinate transportation service 
could also be built into program guidance and rules.
    Mr. Chairman, that concludes my statement. As you know, we 
plan to issue a report with additional information and 
recommendations at the end of next month through this 
committee.
    I would be happy to answer any questions.
    Let me also introduce Rita Grieco sitting next to me who so 
kindly operated my slides today and may in fact help me answer 
some questions.
    Mr. Petri. Thank you.
    Are there questions? Ms. Millender-McDonald.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. I am sorry 
that I am late but I am leaving another committee coming here.
    Let me first complement you on the importance of this 
issue, Mr. Chairman, because I just left a group of educators 
talking about transportation. It is so critical when we talk 
about transportation and the reauthorization of TEA-21 or TEA-3 
that we look at the educational aspects of transportation. That 
was one that was really not a part of my physic until I read 
the material here today.
    I appreciate the testimony of Ms. Siggerud and physical 
infrastructure issues because it is so critical to this whole 
thrust of transportation infrastructure. When we see the 
veterans, getting veterans from their homes to rehabilitation, 
community centers and as we look at councils of governments who 
are left with the whole notion of trying to transport the 
disabled, and parents leaving work to come to schools for a 
visit with the teachers and that type of thing, and even more 
critical, the welfare to work. I have said often that we need 
to look at transportation with reference to that.
    I suppose it is not so much a question but just agreeing 
with what the lady has said in terms of the physical 
infrastructure and all of the human service aspects of it as we 
move into this whole notion of reauthorization of TEA-21. 
Coordinating those human services along with all other aspects 
of this issue is very critical to the well being of communities 
that make up regions that make up States that make up this 
country.
    I am very pleased to be here to hear at least the testimony 
of our witnesses and look forward to the other testimony. I do 
have a written statement for the record.
    Mr. Petri. Thank you.
    Mr. Boozman?
    Mr. Boozman. You gave examples of how things are done a bit 
better and there was a direct correlation between providing 
better service and also some monetary rewards. My question is, 
is there room for a lot of savings out there, a lot of 
efficiency or does this need to be tweaked a little bit?
    Ms. Siggerud. I think there are really two issues. There is 
the issue of efficiency and the issue of quality of service. In 
most of the localities that we visited, we did visit five 
States and a number of localities in those areas. We found 
agencies were able to eventually provide more efficient 
transportation through coordination of the variety of services 
they provide at a local level. In most cases, they had used 
that savings to provide additional or better service for 
example to additional clients or to offer longer hours or 
additional types of service.
    We were not able to quantify a specific savings, a 
particular amount. In one county we visited, we did see a 20 
percent drop in the per trip cost after a coordinated system 
was in fact implemented.
    Mr. Boozman. Are the monies given to the States block 
granted? Like Leave No Child Behind, we have done that and said 
here is the money but we want some accountability and some 
results. Do we do that with these programs for the most part or 
is the accountability not there as much as you would like to 
see?
    Ms. Siggerud. There are a variety of ways these monies are 
provided. There are block grants as you noted, there are also 
grants specifically to transit agencies for the purpose of 
improving transportation and providing paratransit 
improvements. So it is hard to generalize about the way the 
Federal funds are provided. In fact, that is one of the issues 
we raised. We see them provided to State levels, local levels, 
to area administration on aging, to workforce investment 
boards, that type of thing. So it is difficult to generalize.
    With regard to accountability, I did note that we were only 
able to obtain any useful cost information from 28 of these 
agencies. Therefore, it is fairly difficult for the Federal 
Government to have a good understanding of how the money is 
being spent or if it is being spent inefficiently in terms of 
provision of these services.
    Mr. Boozman. Thank you.
    Mr. Petri. Other questions? Mr. Isakson?
    Mr. Isakson. No thank you.
    Mr. Petri. I am going to ask not that you do a lot of 
paperwork and use a lot of peoples' time but if you could 
supply us with sort of a best estimate. We can't find hard 
numbers for a lot of the programs for transportation. If you 
could give us the best estimate of the total spent at the 
Federal, State and local levels on human services 
transportation, I think it would help us to draw attention to 
the opportunities for better quality, better communication, 
better coordination and more actual provision of services on 
the ground to real people and less overhead.
    I suspect if we were to divide one number into another, we 
would say, these people are not getting this much in terms of 
bus trips, taxi help and you name it, so what are we doing? We 
are feeding some large entity that is not very well coordinated 
and as a result it is somewhat dysfunctional. Maybe that is 
wrong but if that is true, this figure would help us to make 
that case and might help drive some better coordination and 
improvement in quality of services for real people in the real 
world.
    The actual specific number is less important than the order 
of magnitude and the range and some confidence that it is 
roughly in the ballpark. Do you think you could do that for us?
    Ms. Siggerud. Let me make two responses to your question. 
You raised the issue of whether in fact this is an important 
amount of money. I think regardless of the amount of money we 
are talking about here, in fact it can be fairly large. In 
Medicaid it is $1 billion alone in a year. However, as you 
pointed out when you sort of add all that together across the 
Nation, you end up with a pretty big number that I can't put a 
number on right now but we are willing to work with you on one.
    The second issue is that the provision of transportation 
services for the purpose of accessing human services is one of 
the most important points and one of the most important areas 
that everyone talked to us about when we went out and did our 
case study. The provision of the service itself is extremely 
important regardless of the amount of money.
    With regard to your request for sort of a ballpark figure, 
my staff has already done a fair amount of inquiry at the 
Federal level. We have some information on general ranges that 
human service agencies have typically spent, even though these 
human service agencies couldn't tell us the actual amount they 
have spent, so I can share that with your staff at a later 
time.
    Mr. Petri. Thank you.
    One last question. As you have reviewed the Federal 
programs with some care, which Federal programs among the 62 
you have identified do you think could most easily be 
coordinated? Are there obvious programs that serve similar 
populations where the transportation services could be 
combined? If you don't want to do it off the top of your head.
    Ms. Siggerud. I think I can do it off the top of my head. 
There are really two answers to that question.
    All of the witnesses who came before me talked about the 
importance of local situations in terms of dictating the type 
of coordination that is provided. Each regional government or 
local agency may be facing a different type of situation with 
regard to its geography, with regard to the type of clients it 
serves. To some extent the actual coordination needs to be 
driven by local needs.
    However, if you look at the Federal Government programs we 
have provided, there are several programs we know have 
substantial expenditures that also serve similar client 
populations. Starting with the unemployed or low income, the 
TANF Program, the Job Access Program and the Work Force 
Investment Act Program have similar clients and are attempting 
to provide some similar types of transportation services. I 
think that is an obvious place to start.
    There is also the Medicaid Program along with the elderly 
programs who are serving some similar types of clients and also 
providing similar types of human services, for example, medical 
trips and nutrition trips. That is another obvious place for 
coordination.
    Finally, there is the service to persons with disabilities, 
provided for example through the vocational rehabilitation 
programs and the Department of Education as well as the 
Department of Transportation. For example, its 5310 Program 
provides funds specifically for the purpose of transporting 
persons with disabilities. I think that is another group of 
programs that could obviously be looked at for coordination.
    Mr. Petri. Thank you very much. I think we will proceed to 
do that.
    With that, we thank you for the testimony and look forward 
to your final report.
    Mr. Petri. I would now like to call the final panel which 
consists of Mr. David Winzel, Council Member, National Council 
on Disability; Joann Hutchinson, Director, Florida Commission 
for the Transportation Disadvantaged, Florida Department of 
Transportation; Patrick Reinhart, Executive Director, Alaska 
State Independent Living Council; and Jon Burkhardt, Senior 
Study Director, Westat.
    We will begin with Mr. Winzel.

TESTIMONY OF DAVID WENZEL, COUNCIL MEMBER, NATIONAL COUNCIL ON 
   DISABILITY; JOANN HUTCHINSON, EXECUTIVE DIRECTOR, FLORIDA 
   COMMISSION FOR THE TRANSPORTATION DISADVANTAGED, FLORIDA 
   DEPARTMENT OF TRANSPORTATION; PATRICK REINHART, EXECUTIVE 
 DIRECTOR, ALASKA STATE INDEPENDENT LIVING COUNCIL; AND JON E. 
            BURKHARDT, SENIOR STUDY DIRECTOR, WESTAT

    Mr. Winzel. Good morning.
    My name is David Winzel. I live in Scranton, Pennsylvania. 
From 1986 to 1990, I served as Mayor of the City of Scranton. 
Before then, I served in the United States Army as a platoon 
leader in Vietnam. In 1971, I stepped on a land mine and lost 
both my legs and left hand. I have been disabled for the last 
32 years.
    Last year, I was appointed by President Bush to the 
National Council on Disability. I am here as a spokesman for 
that organization.
    The National Council on Disability is an independent agency 
charged with making recommendations to the President, Congress 
and Federal agencies on issues involving equal opportunity for 
disabled Americans. We welcome the opportunity to share our 
recommendations with you on the reauthorization of the 
Transportation Equity Act.
    Access to transportation is critical for Americans with 
disabilities in order to participate in the job market and 
community activities that most of us take for granted. 
According to a Harris poll funded by the National Organization 
of Disability, approximately 30 percent of Americans with 
disabilities have a problem with adequate transportation 
compared with only 10 percent for the general population.
    Also, the National Center for Health Statistics reports 
that 5.5 million Americans never drive and automobile because 
of impairment or health problems, one or the other.
    For America to achieve the goals of the Americans with 
Disability Act, the United States must expand its investment in 
comprehensive, accessible and affordable transportation 
systems. To this end, the National Council on Disability offers 
the following recommendations.
    The Bush Administration under the new Freedom Initiative 
included $145 million for innovative transportation solutions 
for people with disabilities in its fiscal year 2002 and 2003 
budgets. The funding did not survive the appropriations 
process. NCD asks that Congress authorize the funding for 
fiscal year 2004 to remove transportation barriers.
    Two, set aside 5 percent of service transportation program 
funds and congestion mitigation air quality known as CMAQ funds 
for implementation for the recommendations of the Public Rights 
of Way Access Advisory Committee. Despite the availability of 
STP and CMAG funds, many States expend little funding for 
improving sidewalks, crosswalks, signals and curb cuts for 
people with disabilities just to be able to get to the bus 
stop.
    Third, authorize significant funding increases for rural 
and small rural transportation services to address the serious 
lack of transportation options for disabled Americans in rural 
communities. One of our previous members of Congress mentioned 
the problems he was having with rural communities receiving 
transportation.
    Approximately 12.5 million Americans in rural areas have 
disabilities and 6 million have severe disabilities. People 
with disabilities make up 25 percent of non-metropolitan 
population centers compared to 18 percent in metropolitan 
areas. There are more people with disabilities in the non-
metropolitan population centers.
    In conclusion, let me leave you with one last statistic. On 
January 1, 2011, 10,000 baby boomers will cross the threshold 
of retirement. That is, they will turn 65 years of age and 
every day for the next 10 years, 10,000 people a day will 
continue to turn 65. Over those 10 years, 80 million Americans 
will reach retirement age and with old age comes increased 
disability. When you add to that the children who are burn with 
disabilities and accident victims, we will need a comprehensive 
State and accessible transportation system and have to build on 
what we have right now.
    Thank you very much.
    Mr. Petri. Thank you, sir.
    Ms. Hutchinson, would it be all right if we asked Mr. 
Reinhart to seat because his Representative is here and I know 
he wants to hear the testimony and ask a question.
    Mr. Reinhart. My name is Patrick Reinhart. I am the 
Executive Director of the State Independent Living Council in 
Alaska.
    Briefly, all of our States and U.S. Territories have State 
Independent Living Councils that are responsible under the 
Rehabilitation Act to develop a network of centers for 
independent living and to promote independent living services 
for people with disabilities in our respective States.
    We are counting on you guys to help us deliver our mobility 
needs. When organizations and programs such as ours work with 
individuals with disabilities in ways to gain independence, we 
run against a lot of obstacles such as access to personal 
attendant care, lack of accessible housing, public attitudes 
and few employment opportunities.
    The lack of transportation is consistently among the top 
barriers reported by people with disabilities and those that 
serve them. Reliable, accessible, public transportation is 
necessary if people with disabilities are going to go to work 
and participate in the community.
    We believe our Nation's investment in transportation 
services for people with disabilities is still inadequate and 
as the previous speaker mentioned, it is going to grow with the 
issue of more and more services needed.
    You have made some great strides with TEA-21 in the last 
six years and we need to continue in the efforts to improve 
services. We need to not forget the millions of seniors who do 
not, cannot and in some cases, probably should not be driving 
and the additional 50 million people with disabilities that 
identified themselves in the last census.
    We know you plan on spending hundreds of billions of 
dollars on roads, bridges and other infrastructure in this next 
reauthorization and we ask you not to forget this. I think it 
is important you have recognized the human service 
transportation side of the ledger. We need to improve our 
public and coordinated transportation systems in this country 
if we are going to meet the growing need.
    For someone with a disability to get around in this 
country, it is difficult in our most well endowed 
transportation systems. You have fully accessible buses or 
subway systems, you have paratransit services that go door to 
door for people who can't make it to the bus system, you also 
have 24-hour accessible cab service but that is not most of 
America right now.
    Most of rural America, States like Alaska which as 
Congressman Young knows, there is a whole new definition of 
rural when you come to Alaska. We don't have the advantages of 
huge public transit systems, so we do rely on the fact we have 
to build coordinated systems wherever we can. We have done that 
in a number of our communities in our States. We have cobbled 
together different funding sources, getting through the myriad 
of Federal requirements and reporting requirements and 
literally adding them to one pot to get a system going in a 
number of different communities.
    It has worked and it is a headache in terms of the 
paperwork that we have to fill out but it can be done and we 
have done it in a number of communities.
    In our State we feel we have dozens more to go to develop 
in some of our smaller rural areas. We need the funding streams 
in place to do that. The bottom line is we are not spending 
enough on public transit. I have attached to my testimony a 
policy brief by the Association of Programs for Rural 
Independent Living which are councils across the country voted 
to support.
    We also need more flexibility in the use of Federal funds. 
For example, buying a lift equipped van for a village on the 
Yukon River is absolutely useless to us but giving a grant to 
that village so they can buy a landing craft style boat to get 
somebody with a wheelchair on or off that boat and down the 
river to where they might have a fish camp is important. So we 
need to have some local control to define what transportation 
means for us using these Federal programs.
    We believe these new coordinated systems take time to 
develop, take subsidies, take years. We have had some programs 
that would start and fail but after several attempts, we have 
been able to get them going.
    We think there are some real problems with the current 
rules with the 5311 Program. This comes from my friends in 
Wisconsin that rural transportation services. They say it caps 
the population that the rural transit program can serve to 
25,000 and discourages multijurisdictional collaboration, this 
despite the fact the program envisions an integrated cost 
effective transit system for small to medium size rural areas. 
We need to take off the caps and encourage close group 
communities to pool applications and allow funding for rural 
planning organizations kind of analogous with the municipal 
planning organizations funded currently.
    We believe Congress should demand that State and city 
governments who are getting the bulk of these billions in 
highway and transit dollars begin including people with 
disabilities, seniors and other stakeholders in the planning 
process. For the most part, our experience has been they are 
not involved, they are not at the table at those MPOs and we 
need to get them involved.
    Finally, I want to say that transportation is one of those 
major dilemma issues. Without it, independence fails. With it, 
the freedom to participate in America's dream becomes a real 
possibility.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Young?
    Mr. Young. Thank you for having these hearings. I think 
they are very, very important. As mentioned, we addressed this 
in the last TEA-21 and we will probably be addressing it this 
time also. I think you bring out some very good points.
    I do want to thank you for coming all the way from 
Anchorage to participate in the hearing.
    What is the status of Alaska Mobility Coalition efforts to 
establish coordinated community transportation systems in 
Alaska? You mentioned it in your testimony but what is 
happening there?
    Mr. Reinhart. The Alaska Mobility Coalition is really a 
starting organization. We just developed it after having a 
summit of getting all the disability and senior transportation 
service providers together in our attempt for coordination and 
we decided we needed a statewide organization to help promote 
coordination. We are really getting started and recently 
received some JARC funding to do that and that is going to be 
partially to do some of the planning efforts to get some of 
these new coordinated systems going in communities that don't 
have them. That will be the emphasis of the Alaska Mobility 
Coalition in the next couple of years.
    Mr. Young. What is the response from those communities? Are 
they with you, for you, akin you or what are they doing?
    Mr. Reinhart. As far as the human service transportation 
providers in those communities, they are all for it. I think 
the thing we run up against is the fact that local officials, 
municipal officials don't really look at transit issues as 
importance as the new road they need developed or the bridge 
they need across a river, so that is part of the Alaska 
Mobility Coalition's plan, to raise the status of human surface 
transportation needs in each one of these communities to the 
point of getting their local support as well as State support 
to fund some of these things.
    Mr. Young. The flexibility you are asking for, would that 
flexibility go through your organization or how would that 
work? I like your concept because you are absolutely right. I 
have watched the chairlifts being delivered to some of the 
villages and they are not really of any value. Would that money 
go directly to the village or how would that work and who would 
supervise it?
    Mr. Reinhart. We talked about the 5310 and 5311 programs 
where it comes to the State DOT. That money gets put out in 
grants that local governments as well as local nonprofit 
organizations can apply for and they do but there are a lot of 
rules and restrictions as to some of those funding sources.
    I bring up this example because I was on a review team for 
5310 grants and we couldn't fund a village request for a boat I 
was describing. We couldn't do it with the existing funding 
source.
    Mr. Young. Can you do us a favor and give us some 
suggestions? Not right now but in writing about what 
flexibility would curtail and what we could do with it because 
I know what you are talking about. A lot of times we try to do 
what is right and because of regulations and positions, we 
don't achieve the goals we are seeking. We probably need some 
suggestions in writing from yourself so we can make this 
program work in the rural areas of Alaska because you are 
right.
    For the rest of those on the panel, I know there are other 
rural areas in America but we are about as rural as you can get 
other than the fact we all fly somewhere but there are very few 
roads and those we do have are quite dusty. We are going to try 
to take care of that.
    I think you can give us some good advice.
    Mr. Reinhart. I would be happy to do that.
    Mr. Young. I want to thank you for your testimony and I 
appreciate the panel.
    Again, thanks for having this hearing.
    Mr. Petri. Thank you.
    Ms. Hutchinson?
    Ms. Hutchinson. Thank you so much for the invitation to 
come here and talk to you about my favorite subject, 
coordination in the State of Florida.
    I am Joann Hutchinson, Executive Director of the Commission 
for the Transportation Disadvantaged. We are housed in the 
Florida Department of Transportation for the sole purpose 
mandated by our legislature to coordinate all the human 
services transportation. We are one of the few States charged 
to do that at the State level.
    Serving on our commission to help us do our job at the 
local level are consumers that use the transportation, all the 
different agencies that fund the transportation services, 
providers who provide and coordinate the transportation and 
others who represent statewide organizations. So we have a 
diverse group of people helping us set the policies and 
procedures to move coordinated transportation forward.
    The history of our program started in the late 1970s even 
before there was a State law that required it with concern over 
duplication and fragmentation of services, so they created a 
coordinating council and you can see on the chart that it has 
grown. We have dedicated funding at the State level for more 
transportation to be provided to those transportation 
disadvantaged in our State who are the elderly, persons with 
disabilities, low income and children at risk. We have quite a 
bit of history.
    Coordination is defined in our State law as the arrangement 
for the provision of transportation services to the 
transportation disadvantaged in a manner that is cost 
effective, efficient and reduces fragmentation of services.
    You asked in your letter for the benefits of coordination. 
It can increase service levels. We have done that in every year 
except for last year and I will explain that in a bit. You can 
reduce expenditures in many areas, increase efficiency, reduce 
duplication and fragmentation of services. By doing all that, 
you stretch limited tax dollars. You build community support by 
bringing all the different groups together and provide good 
public awareness.
    There is tax dollar accountability which is very important 
for all of us who want to make sure our tax dollars are spent 
wisely. You also eliminate the fraud and abuse by having a 
gatekeeper concept. It is very important you ensure safety and 
welfare of our most vulnerable citizens. You save dollars in 
other programs. Nursing home care in Florida is approaching 
$40,000 on average a year. Certainly if you can keep someone 
healthy by giving them that transportation to go to the doctor 
on a regular basis, you save a lot of money and it goes on and 
on in the employment, health care and other areas. It is very 
important.
    You asked for the barriers of transportation. I like to 
call them the challenges to coordination. There is inadequate 
budgeting for transportation across many funding programs. 
Medicaid does have a line item in our budget. Some of the other 
programs do not, so there is a need to show your support as the 
previous speaker mentioned of why transportation is so 
important. How good is a program if you can't get there and 
help these people get what they need to maintain an acceptable 
quality of life.
    Funding is not consolidated in one entity. In areas like 
our State where there is a commission that is responsible, we 
could save more money by consolidating some of the funding 
sources. I think that could be done in a lot of other areas.
    There is often conflict in purchasing agency policies that 
create a lack of uniformity in safety and operating standards. 
There is duplicative monitoring and reporting by several 
agencies and we are working on some of those solutions.
    Also, the Federal Medicaid law requires that transportation 
shall be provided. However, there is not necessarily the 
available budget to go along with that requirement. At our 
State level, we have a Medicaid co-pay that is required but yet 
the recipient is not required to pay that co-pay, putting the 
burden on our transportation businesses which results in higher 
cost.
    This slide shows the accountability and the money spent in 
the State of Florida, State, Federal and local dollars. We know 
how much we are spending in Florida. We didn't know 23 years 
ago when I got involved in the program but now we are spending 
close to $300 million a year of actual expenditures.
    You will see a five year trend from 1998 to 2002 of the 
average trip cost and you see it has pretty much stayed the 
same. It did go up last year and there is a good reason. It 
wasn't because of coordination. Insurance costs in Florida and 
gasoline, insurance alone went up in many Florida counties as 
much as 400 percent, something outside anyone's control. This 
is a growing problem and a process for transportation. We are 
working with our insurance department on that.
    For cost savings, from 1995 to 1998 our coordinators 
reported a savings of over $154 million by maximizing 
coordination through these different methods, the bus pass 
programs, multiloading, changing schedules. Florida was given 
two awards for this progress, so we are very pleased with that.
    In Miami Dade County, the bus pass program diverting people 
from door to door expense of transportation to a bus ticket on 
a monthly basis is saving Dade County alone over $600,000 a 
month. I caution though there is only 23 of the 67 counties in 
Florida that have a bus system, so those savings are limited to 
those areas. The other counties are small urban and rural 
counties.
    In Florida, we also show you who is being served. This was 
a big issue in our State. You can see the types of trips and 
types of individuals being served. This is part of our 
accountability of having a coordinated transportation system.
    Is the program perfect? By no means. We are always looking 
for ways to improve and here are some examples of what we would 
like to do. We plan to modify our coordination statutes to 
require all the agencies to request budget authority for this 
type of transportation, we are also going to allow, not mandate 
the transfer or contracting with our commission to do their 
transportation services for them reducing administrative costs, 
also some consolidation of monitoring of all the purchasing 
agencies for transportation instead of eight or nine agencies 
monitoring and asking the same questions, we can do it with no 
additional personnel.
    We also want to go outside the box and implement some 
alternative delivery methods like use of faith-based 
organizations, volunteer programs and provide more customer 
choice within our coordinated transportation system. We want to 
eliminate the co-pay for Medicaid I mentioned that has to be 
done at the State level, and we want to continue to look for 
funding opportunities to increase the million trips that are 
documented as not being provided. Even with all these wonderful 
savings and the dedicated revenues, we still have significant 
unmet trips.
    We also want to look at developing a methodology for 
improved rate structure.
    This is what Florida is doing and we are very proud of it. 
I will be available for questions.
    Mr. Petri. Thank you.
    Mr. Burkhardt?
    Mr. Burkhardt. My name is Jon Burkhardt. I work for Westat, 
an employee-owned research company in Rockville, Maryland. I 
have been looking at transportation issues for many years.
    I have two points I would like to make today for the 
committee. One is that coordinated transportation has very 
significant economic benefits. The second point is that we need 
congressional help just to maintain but also to increase this 
level of benefits.
    In many communities, transportation services are not 
perfect. They sometimes overlap and duplicate each other. They 
don't run cost effectively. Better vehicles are needed, better 
customer services are needed, services customers want to use 
are needed, and transportation providers could cooperate more. 
Coordination can help.
    We need to understand coordination if it is really going to 
work for us. We have been working to achieve greater 
coordination for more than 25 years and are not finished yet. 
We should understand that coordination is a resource management 
strategy that involves shared power. This means no one person 
is in control, but people together work on quality issues, 
funding issues and management. Indeed, coordination is about 
power and control of resources, so some of the issues that 
Congress deals with daily are really important.
    It is also important to understand coordination's 
significant economic benefits because when these benefits are 
understood, coordination will be recognized as more attractive. 
Access to more funds from more sources, more efficiency, such 
as lower cost per mile or lower cost per hour, increased 
productivity, which means more passengers per hour or more 
passengers per mile, greater economic development in 
communities, and improved service quality, are among the very 
significant economic benefits of coordination.
    How do you achieve these benefits? You need strategic 
approaches. We have looked at five major strategies. The 
benefits of these five major strategies could add up to $700 
million per year. That is a conservative estimate. If transit 
agencies could provide trips for Medicaid as being done in the 
Miami area, that would be a significant strategy. Non-transit 
agencies providing ADA services could help considerably. 
Shifting paratransit riders to fixed route services, human 
service agencies coordinating and expanding transportation 
services through coordination, all could add up to $700 million 
or more.
    If we are going to improve our transportation services, 
there are many ways to do that. As you see, coordination is one 
of them, but not the only one. Others are customer orientation, 
consumer choice and technologies. Coordination is a very 
important transportation service improvement strategy.
    On the next several slides, the green lines indicate 
specific strategies. For example, the generation of new 
revenues in the Miami area, Dade County, Florida, led to an 
additional $2.3 million per year for the transit authority. 
Saving costs by contracting with school districts provided 
$100,000 a year in Mason County, Washington which is a small 
area. Saving costs when non-transit agencies provide ADA 
paratransit services in Pittsburgh, Pennsylvania, created 
savings of about $26 million a year. In Minnesota in Dakota 
County, benefits of almost $400,000 a year were created through 
their coordination efforts.
    Saving costs by shifting ADA riders to fixed route 
services, both Charlottesville and Sacramento, saved $1 million 
a year in each community, evan though they had different 
strategies. When human service agencies coordinated in Kearney, 
Nebraska, their brokerage system saved $400,000 a year.
    Coordinated dispatching and vehicle sharing in Seattle, a 
demonstration program which is no longer operating, they 
coordinated ADA services with Medicaid and saved $100,000 a 
year. Also, looking at increasing mobility, in California, 
Riverside County, they used volunteer drivers for the frail 
elderly. Outside of Detroit, they saved $2 million a year in a 
regional property tax program.
    How can Congress help? There are a variety of ways. I have 
listed four in my written testimony: Medicaid and Medicare are 
really the big issues because they are the large dollar 
programs. I didn't list number five: number five is to give the 
USDHHS/USDOT Coordinating Council on Access and Mobility some 
real status. This could be done through a line item with 
specific dollars for the Coordinating Council to give them real 
staff and real capabilities.
    I would like to talk a bit more about Medicaid and 
Medicare. Medicaid is the largest non-emergency transportation 
program in the United States. In fiscal 2001, Federal 
expenditures were nearly $1 billion. This is a State run 
program, so there is great variability in program 
administration. On average, States spend almost 1 percent of 
their Medicaid budgets on transportation services.
    There has been good coordination to date with the Medicaid 
program, but some of this coordination is now in jeopardy and 
Congress needs to understand this problem. There are activities 
in terms of capitated rates and managed care organizations 
which will get in the way of coordinated transportation 
services. This is already happening in several States. I just 
came from California and the Governor there is talking about 
eliminating transportation as an allowable medical expense 
entirely.
    We haven't been talking about Medicare today because it is 
not a non-emergency transportation program: Medicare 
transportation is supposed to be an emergency program provided 
by ambulances. Medicare spends about $2.2 billion a year 
transporting clients. We know that Medicare transports many 
people who are not in an immediate medical emergency situation. 
These trips can be provided more cost effectively.
    Community transportation providers could offer the trips 
and the Medicare Program would save millions of dollars and 
community transportation would benefit. The initial estimate of 
cost savings is $300 million a year by not using ambulances and 
not using emergency departments.
    The real benefits would be in better health care. Just two 
illnesses, heart disease and kidney failure, cost the United 
States of America $375 billion a year. If we had a medical 
transportation partnership, coordinated, transportation could 
improve access to primary medical care. If this created one 
tenth of one percent in annual savings, $375 million would be 
saved. Savings of $3.8 billion could be realized on a 1 percent 
savings.
    If Congress would look at Medicare and open up the 
ambulance transportation to non-emergency services, we could 
get much better health care and substantial long run savings 
for the United States.
    There are many tasks before us and we hope Congress will 
help us with some of these challenges. We are counting on it.
    I would be happy to answer questions.
    Mr. Petri. Thank you all.
    Mr. McCarthy, any questions?
    Mr. McCarthy. No.
    Mr. Petri. Mr. Boozman?
    Mr. Boozman. Want to thank all of you for coming.
    I have a question for the whole panel. The GAO tells us 
that we have 62 programs that provide transportation services. 
Some are small, some are much larger. If we had to concentrate 
and focus on a few of the programs, I would like to know where 
you recommend we begin?
    Ms. Hutchinson. I would think with the largest funding 
programs like Medicaid and I do think Medicare needs to be 
looked at as well, dealing with the ambulance transportation. 
This is something that is being discussed more and more, the 
misuse of ambulance transportation when it could be performed 
by our community transportation and transportation providers. 
Medicaid and Medicare transportation would be probably the top 
one within human services and the Federal Transit 
Administration funding which puts in substantial dollars as 
well.
    I personally think you have to look at all of it because 
you need more than just a piece for it to work effectively. 
That is why we have everyone at the table from all the 
different agencies at the State and local level. They learn 
from each other even though they may have a small pot of money. 
They may have some resources the big agency might be able to 
take advantage of.
    I would urge you not to piecemeal it if you can, to try to 
do it for all.
    Mr. Burkhardt. I would also like to mention TANF as a 
specific program that would be very good to coordinate and all 
the programs of the Federal Transit Administration.
    Mr. Winzel. I was going to mention in my testimony I 
mentioned the $145 million that the Bush Administration put 
forward for the new Freedom Initiative. The whole idea of that 
is to come up with new pilot projects and new ways of looking 
at how we can transport disabled. Through that you would save 
money and also maybe combine some of the programs you talked 
about.
    Mr. Boozman. You mentioned Medicare transportation. I am an 
optometrist, an eye doctor, so I have a lot of friends in 
various professions in health care. It did happen occasionally 
that Medicare people were transported by ambulance when that 
just didn't need to be the case at all and were billed 
subsequently. Are you saying that happened somewhat or hearing 
reports of those kinds of things?
    Ms. Hutchinson. We hear reports of it and we read the GAO 
report on that particular issue and felt it was going on 
probably in most every State. I think with some better 
coordination, especially having people like in our area where 
we have local coordinating boards. We just added to the board a 
member of the medical community. By having those people at the 
table, we will probably learn more about that. That way we can 
get into it.
    A lot of our counties who used to contract with the 
ambulances are now using the community transportation 
coordinator to do some of that ambulance transportation. So it 
could work both ways but it needs to be brought to the table.
    Mr. Burkhardt. One of the issues we are dealing with is 
something like 40 percent of rural America has either very poor 
or no transportation services at all. An ambulance may be the 
only opportunity to travel. Particularly for conditions 
requiring dialysis, if someone misses three or four 
appointments, then it really becomes a medical emergency. So 
the doctors have been certifying ambulance transportation for 
dialysis and sometimes the ambulance providers don't get paid 
for these trips because they are not really supposed to be 
reimbursed unless the trip is for a medical emergency. This is 
a key issue that needs to be looked at.
    Mr. Boozman. Thank you.
    Mr. Petri. Mr. Winzel, I think your presence here today 
indicates the answer to this question but I thought I would ask 
anyway. The National Council on Disability obviously has the 
authority and responsibility to make recommendations to the 
Congress and the White House on issues affecting the disabled 
community. Does the Council consider the transportation 
challenges of the disabled Americans an issue worthy of 
recommendations for improvement?
    Mr. Winzel. Definitely. As a matter of fact, we had our new 
council just get together about two months ago and we set our 
initiatives we are going to concentrate on in the future and 
transportation was right among the top five. Naturally the 
chief programming of the National Council on Disability is we 
are kind of the overseers of the Americans with Disabilities 
Act. We monitor and see what is going on both in the Supreme 
Court and also in the Government and throughout the entire 
United States. Transportation is really a big portion of that.
    Mr. Petri. Thank you all very much. We appreciate your 
testimony and look forward to continuing to work with you on 
making our transportation more accessible and useful to our 
country.
    This hearing is adjourned.
    [Whereupon, at 12:12 p.m., the committees were adjourned, 
to reconvene at the call of the Chair.]

[GRAPHIC] [TIFF OMITTED] T7469.001

[GRAPHIC] [TIFF OMITTED] T7469.002

[GRAPHIC] [TIFF OMITTED] T7469.003

[GRAPHIC] [TIFF OMITTED] T7469.004

[GRAPHIC] [TIFF OMITTED] T7469.005

[GRAPHIC] [TIFF OMITTED] T7469.006

[GRAPHIC] [TIFF OMITTED] T7469.007

[GRAPHIC] [TIFF OMITTED] T7469.008

[GRAPHIC] [TIFF OMITTED] T7469.009

[GRAPHIC] [TIFF OMITTED] T7469.010

[GRAPHIC] [TIFF OMITTED] T7469.011

[GRAPHIC] [TIFF OMITTED] T7469.012

[GRAPHIC] [TIFF OMITTED] T7469.013

[GRAPHIC] [TIFF OMITTED] T7469.014

[GRAPHIC] [TIFF OMITTED] T7469.015

[GRAPHIC] [TIFF OMITTED] T7469.016

[GRAPHIC] [TIFF OMITTED] T7469.017

[GRAPHIC] [TIFF OMITTED] T7469.018

[GRAPHIC] [TIFF OMITTED] T7469.019

[GRAPHIC] [TIFF OMITTED] T7469.020

[GRAPHIC] [TIFF OMITTED] T7469.021

[GRAPHIC] [TIFF OMITTED] T7469.022

[GRAPHIC] [TIFF OMITTED] T7469.023

[GRAPHIC] [TIFF OMITTED] T7469.024

[GRAPHIC] [TIFF OMITTED] T7469.025

[GRAPHIC] [TIFF OMITTED] T7469.026

[GRAPHIC] [TIFF OMITTED] T7469.027

[GRAPHIC] [TIFF OMITTED] T7469.028

[GRAPHIC] [TIFF OMITTED] T7469.029

[GRAPHIC] [TIFF OMITTED] T7469.030

[GRAPHIC] [TIFF OMITTED] T7469.031

[GRAPHIC] [TIFF OMITTED] T7469.032

[GRAPHIC] [TIFF OMITTED] T7469.033

[GRAPHIC] [TIFF OMITTED] T7469.034

[GRAPHIC] [TIFF OMITTED] T7469.035

[GRAPHIC] [TIFF OMITTED] T7469.036

[GRAPHIC] [TIFF OMITTED] T7469.037

[GRAPHIC] [TIFF OMITTED] T7469.038

[GRAPHIC] [TIFF OMITTED] T7469.039

[GRAPHIC] [TIFF OMITTED] T7469.040

[GRAPHIC] [TIFF OMITTED] T7469.041

[GRAPHIC] [TIFF OMITTED] T7469.042

[GRAPHIC] [TIFF OMITTED] T7469.043

[GRAPHIC] [TIFF OMITTED] T7469.044

[GRAPHIC] [TIFF OMITTED] T7469.045

[GRAPHIC] [TIFF OMITTED] T7469.046

[GRAPHIC] [TIFF OMITTED] T7469.047

[GRAPHIC] [TIFF OMITTED] T7469.048

[GRAPHIC] [TIFF OMITTED] T7469.049

[GRAPHIC] [TIFF OMITTED] T7469.050

[GRAPHIC] [TIFF OMITTED] T7469.051

[GRAPHIC] [TIFF OMITTED] T7469.052

[GRAPHIC] [TIFF OMITTED] T7469.053

[GRAPHIC] [TIFF OMITTED] T7469.054

[GRAPHIC] [TIFF OMITTED] T7469.055

[GRAPHIC] [TIFF OMITTED] T7469.056

[GRAPHIC] [TIFF OMITTED] T7469.057

[GRAPHIC] [TIFF OMITTED] T7469.058

[GRAPHIC] [TIFF OMITTED] T7469.059

[GRAPHIC] [TIFF OMITTED] T7469.060

[GRAPHIC] [TIFF OMITTED] T7469.061

[GRAPHIC] [TIFF OMITTED] T7469.062

[GRAPHIC] [TIFF OMITTED] T7469.063

[GRAPHIC] [TIFF OMITTED] T7469.064

[GRAPHIC] [TIFF OMITTED] T7469.065

[GRAPHIC] [TIFF OMITTED] T7469.066

[GRAPHIC] [TIFF OMITTED] T7469.067

[GRAPHIC] [TIFF OMITTED] T7469.068

[GRAPHIC] [TIFF OMITTED] T7469.069

[GRAPHIC] [TIFF OMITTED] T7469.070

[GRAPHIC] [TIFF OMITTED] T7469.071

[GRAPHIC] [TIFF OMITTED] T7469.072

[GRAPHIC] [TIFF OMITTED] T7469.073

[GRAPHIC] [TIFF OMITTED] T7469.074

[GRAPHIC] [TIFF OMITTED] T7469.075

[GRAPHIC] [TIFF OMITTED] T7469.076

[GRAPHIC] [TIFF OMITTED] T7469.077

[GRAPHIC] [TIFF OMITTED] T7469.078

[GRAPHIC] [TIFF OMITTED] T7469.079

[GRAPHIC] [TIFF OMITTED] T7469.080

[GRAPHIC] [TIFF OMITTED] T7469.081

[GRAPHIC] [TIFF OMITTED] T7469.082

[GRAPHIC] [TIFF OMITTED] T7469.083

[GRAPHIC] [TIFF OMITTED] T7469.084

[GRAPHIC] [TIFF OMITTED] T7469.085

[GRAPHIC] [TIFF OMITTED] T7469.086

[GRAPHIC] [TIFF OMITTED] T7469.087

[GRAPHIC] [TIFF OMITTED] T7469.088

[GRAPHIC] [TIFF OMITTED] T7469.089

[GRAPHIC] [TIFF OMITTED] T7469.090

[GRAPHIC] [TIFF OMITTED] T7469.091

[GRAPHIC] [TIFF OMITTED] T7469.092

[GRAPHIC] [TIFF OMITTED] T7469.093

[GRAPHIC] [TIFF OMITTED] T7469.094

[GRAPHIC] [TIFF OMITTED] T7469.095

[GRAPHIC] [TIFF OMITTED] T7469.096

[GRAPHIC] [TIFF OMITTED] T7469.097

[GRAPHIC] [TIFF OMITTED] T7469.098

[GRAPHIC] [TIFF OMITTED] T7469.099

[GRAPHIC] [TIFF OMITTED] T7469.100

[GRAPHIC] [TIFF OMITTED] T7469.101

[GRAPHIC] [TIFF OMITTED] T7469.102

[GRAPHIC] [TIFF OMITTED] T7469.103

[GRAPHIC] [TIFF OMITTED] T7469.104

[GRAPHIC] [TIFF OMITTED] T7469.105

[GRAPHIC] [TIFF OMITTED] T7469.106

[GRAPHIC] [TIFF OMITTED] T7469.107

[GRAPHIC] [TIFF OMITTED] T7469.108

[GRAPHIC] [TIFF OMITTED] T7469.109

[GRAPHIC] [TIFF OMITTED] T7469.110

[GRAPHIC] [TIFF OMITTED] T7469.111

[GRAPHIC] [TIFF OMITTED] T7469.112

[GRAPHIC] [TIFF OMITTED] T7469.113

[GRAPHIC] [TIFF OMITTED] T7469.114

[GRAPHIC] [TIFF OMITTED] T7469.115

[GRAPHIC] [TIFF OMITTED] T7469.116

[GRAPHIC] [TIFF OMITTED] T7469.117

[GRAPHIC] [TIFF OMITTED] T7469.118

[GRAPHIC] [TIFF OMITTED] T7469.119

[GRAPHIC] [TIFF OMITTED] T7469.120

[GRAPHIC] [TIFF OMITTED] T7469.121

[GRAPHIC] [TIFF OMITTED] T7469.122

[GRAPHIC] [TIFF OMITTED] T7469.123

[GRAPHIC] [TIFF OMITTED] T7469.124

[GRAPHIC] [TIFF OMITTED] T7469.125

[GRAPHIC] [TIFF OMITTED] T7469.126

[GRAPHIC] [TIFF OMITTED] T7469.127

[GRAPHIC] [TIFF OMITTED] T7469.128

[GRAPHIC] [TIFF OMITTED] T7469.129

[GRAPHIC] [TIFF OMITTED] T7469.130

[GRAPHIC] [TIFF OMITTED] T7469.131

[GRAPHIC] [TIFF OMITTED] T7469.132

[GRAPHIC] [TIFF OMITTED] T7469.133

[GRAPHIC] [TIFF OMITTED] T7469.134

[GRAPHIC] [TIFF OMITTED] T7469.135

[GRAPHIC] [TIFF OMITTED] T7469.136

[GRAPHIC] [TIFF OMITTED] T7469.137

[GRAPHIC] [TIFF OMITTED] T7469.138

[GRAPHIC] [TIFF OMITTED] T7469.139

[GRAPHIC] [TIFF OMITTED] T7469.140

[GRAPHIC] [TIFF OMITTED] T7469.141

[GRAPHIC] [TIFF OMITTED] T7469.142

[GRAPHIC] [TIFF OMITTED] T7469.143

[GRAPHIC] [TIFF OMITTED] T7469.144

[GRAPHIC] [TIFF OMITTED] T7469.145

                                   <ALL>                                    

</pre></body></html>
